<html>
<title> - EDUCATION REFORMS: ENSURING THE EDUCATION SYSTEM IS ACCOUNTABLE TO PARENTS AND COMMUNITIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                    EDUCATION REFORMS: ENSURING THE
                    EDUCATION SYSTEM IS ACCOUNTABLE
                       TO PARENTS AND COMMUNITIES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 21, 2011

                               __________

                           Serial No. 112-39

                               __________

  Printed for the use of the Committee on Education and the Workforce




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
68-367 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia              Lynn C. Woolsey, California
Duncan Hunter, California            Ruben Hinojosa, Texas
David P. Roe, Tennessee              Carolyn McCarthy, New York
Glenn Thompson, Pennsylvania         John F. Tierney, Massachusetts
Tim Walberg, Michigan                Dennis J. Kucinich, Ohio
Scott DesJarlais, Tennessee          David Wu, Oregon
Richard L. Hanna, New York           Rush D. Holt, New Jersey
Todd Rokita, Indiana                 Susan A. Davis, California
Larry Bucshon, Indiana               Raul M. Grijalva, Arizona
Trey Gowdy, South Carolina           Timothy H. Bishop, New York
Lou Barletta, Pennsylvania           David Loebsack, Iowa
Kristi L. Noem, South Dakota         Mazie K. Hirono, Hawaii
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                  DUNCAN HUNTER, California, Chairman

John Kline, Minnesota                Dale E. Kildee, Michigan
Thomas E. Petri, Wisconsin             Ranking Minority Member
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia              Carolyn McCarthy, New York
Richard L. Hanna, New York           Rush D. Holt, New Jersey
Lou Barletta, Pennsylvania           Susan A. Davis, California
Kristi L. Noem, South Dakota         Raul M. Grijalva, Arizona
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Mike Kelly, Pennsylvania             Lynn C. Woolsey, California











                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 21, 2011...............................     1

Statement of Members:
    Hunter, Hon. Duncan, Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     3
    Kildee, Hon. Dale E., ranking member, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Gooden, Benny L., Ed.D., superintendent, Fort Smith Public 
      Schools, Fort Smith, AR....................................     6
        Prepared statement of....................................     8
    Greene, Jay P., 21st century professor of education reform, 
      University of Arkansas.....................................    12
        Prepared statement of....................................    14
    Jackson, Bill, founder and CEO, GreatSchools.................    24
        Prepared statement of....................................    26
    Kaloi, Laura W., MPA, parent, National Center for Learning 
      Disabilities, Inc..........................................    16
        Prepared statement of....................................    18

Additional Submissions:
    Hirono, Hon. Mazie K., a Representative in Congress from the 
      State of Hawaii, questions submitted for the record:
        To Mr. Jackson...........................................    50
        To Ms. Kaloi.............................................    52
    Chairman Hunter:
        Letter, dated Sept. 28, 2011, from Linda Dawson, 
          superintendent, School for Integrated Academics & 
          Technologies (SIAT)....................................    42
    Mr. Jackson, response to question submitted..................    51
    Ms. Kaloi, response to question submitted....................    53

 
                    EDUCATION REFORMS: ENSURING THE
                    EDUCATION SYSTEM IS ACCOUNTABLE
                       TO PARENTS AND COMMUNITIES

                              ----------                              


                     Wednesday, September 21, 2011

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2175, Rayburn House Office Building, Hon. Duncan D. Hunter 
[chairman of the subcommittee] presiding.
    Present: Representatives Hunter, Kline, Biggert, Foxx, 
Goodlatte, Hanna, Roby, Kildee, Payne, Scott, Holt, Davis, 
Hirono and Woolsey.
    Staff Present: Jennifer Allen, Press Secretary; Katherine 
Bathgate, Press Assistant/New Media Coordinator; Heather Couri, 
Deputy Director of Education and Human Services Policy; Lindsay 
Fryer, Professional Staff Member; Daniela Garcia, Professional 
Staff Member; Krisann Pearce, General Counsel; Mandy 
Schaumburg, Education and Human Services Oversight Counsel; Dan 
Shorts, Legislative Assistant; Linda Stevens, Chief Clerk/
Assistant to the General Counsel; Alissa Strawcutter, Deputy 
Clerk; Daniel Brown, Minority Junior Legislative Assistant; 
Jody Calemine, Minority Staff Director; John D'Elia, Minority 
Staff Assistant; Jamie Fasteau, Minority Deputy Director of 
Education Policy; Brian Levin, Minority New Media Press 
Assistant; Kara Marchione, Minority Senior Education Policy 
Advisor; Julie Peller, Minority Deputy Staff Director; Melissa 
Salmanowitz, Minority Communications Director for Education; 
Laura Schifter, Minority Senior Education and Disability 
Advisor; and Michael Zola, Minority Senior Counsel.
    Chairman Hunter. A quorum being present, the subcommittee 
will come to order.
    Good morning, and welcome to our witnesses. Thank you for 
being here. We appreciate your time and you coming to join us.
    Good morning, and welcome to today's subcommittee hearing. 
I would like to thank our witnesses for joining us today. We 
appreciate the opportunity to get your perspectives on how 
States and local school districts can ensure public schools are 
held accountable to parents and communities for improving 
student achievement.
    We can all agree a strong accountability system is vital 
for effectively monitoring and improving student achievement. 
However, the current system under elementary and secondary 
education law is failing. Decades of growing Federal 
intervention in the Nation's classrooms have done little to 
boost student achievement levels and make our schools more 
successful. Instead, we now face a system in which the majority 
of public schools will soon be labeled as failing. It is time 
to reexamine the way schools are held responsible for preparing 
children for success.
    The four components of the existing Federal measure of 
accountability, academic standards, assessments, adequate 
yearly progress and school improvement, constitute a one-size-
fits-all approach that is ineffective in gauging the 
performance of schools. Not only is this Federal accountability 
system entirely too rigid, it also fails to take into account 
the various challenges facing unique schools. Instead of 
allowing State and local leaders to develop innovative 
solutions to improve area schools, the Federal system 
established by No Child Left Behind requires all schools 
failing to make AYP for 2 consecutive years or more to follow 
the same overly prescriptive set of interventions.
    It does not matter if the school narrowly missed the mark 
in achieving AYP or if the school failed by a large margin, the 
Federal improvement remedies are nonnegotiable. It seems 
obvious that the problems facing a rural school in Alaska are 
probably very different from those facing a school in inner-
city Los Angeles, which is even different from a school in San 
Diego. A one-size-fits-all process developed by Washington 
bureaucrats is extremely unlikely to adequately and efficiently 
address the needs of both institutions.
    Just last week the full committee heard from a panel of 
education officials about the appropriate Federal role in 
ensuring accountability. These experts agree the current system 
does not offer the flexibility necessary to address 
circumstances at the State and local level. As one witness 
stated, ``The arbitrary bar and lack of flexibility has made it 
difficult for States to advance bold accountability agendas 
that serve their schools and students well.''
    Instead of forcing a narrow and inflexible system on States 
and school districts, the Federal Government should encourage 
State and local officials to create new approaches for 
measuring student achievement and engaging parents and 
community members in the performance of schools. Over the past 
few months, members of this committee have heard countless 
stories of the innovative ways communities and States are 
working to more effectively monitor student progress, motivate 
parents to play a more active role in their children's 
education, and improve the transparency of important school 
performance data. The more we can encourage this kind of 
grassroots engagement in our schools, the better the result.
    In my home State of California, some 1,300 schools are 
persistently failing. Rather than stand by and wait for the 
Federal Government to do something about it, parents have been 
banding together to demand change in their local schools.
    Thanks to a groundbreaking ``parent trigger'' State law 
that allows a majority group of parents to spur reform in an 
underperforming public school, more communities have been 
inspired to take action. For example, the law empowered parents 
in Compton to push to overhaul a failing public elementary 
school by turning it into a charter school. Already States like 
California, Texas and Connecticut have enacted parent trigger 
laws, and several other States are considering similar 
proposals. This is just one example of how folks on the ground 
are taking matters into their own hands to ensure schools are 
held accountable for student performance.
    The witnesses here today have fresh ideas about improving 
accountability and student achievement at the State and local 
levels. They have an intrinsic knowledge of the needs of their 
communities and students, and we should listen carefully to 
their thoughts and ideas as we work to redefine the Federal 
Government's role in school accountability. I look forward to a 
productive discussion on this critical issue with our 
witnesses, as well as my committee colleagues.
    [The statement of Chairman Hunter follows:]

  Prepared Statement of Hon. Duncan Hunter, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    Good morning, and welcome to today's subcommittee hearing. I'd like 
to thank our witnesses for joining us today. We appreciate the 
opportunity to get your perspectives on how states and local school 
districts can ensure public schools are held accountable to parents and 
communities for improving student achievement.
    We can all agree a strong accountability system is vital for 
effectively monitoring and improving student achievement. However, the 
current system under elementary and secondary education law is failing. 
Decades of growing federal intervention in the nation's classrooms have 
done little to boost student achievement levels and make our schools 
more successful; instead, we now face a system in which the majority of 
public schools will soon be labeled as ``failing.'' It is time to 
reexamine the way schools are held responsible for preparing children 
for success.
    The four components of the existing federal measure of 
accountability--academic standards, assessments, Adequate Yearly 
Progress, and school improvement--constitute a one-size-fits-all 
approach that is ineffective in gauging the performance of schools. Not 
only is this federal accountability system entirely too rigid, it also 
fails to take into account the various challenges facing unique 
schools.
    Instead of allowing state and local leaders to develop innovative 
solutions to improve area schools, the federal system established by No 
Child Left Behind requires all schools failing to make AYP for two 
consecutive years or more to follow the same overly-prescriptive set of 
interventions.
    It does not matter if the school narrowly missed the mark in 
achieving AYP, or if the school failed by a large margin. The federal 
improvement remedies are nonnegotiable. It seems obvious that the 
problems facing a rural school in Alaska are probably very different 
from those facing a school in inner-city Los Angeles, which is even 
different from a school in San Diego. A one-size-fits-all process 
developed by Washington bureaucrats is extremely unlikely to adequately 
and efficiently address the needs of both institutions.
    Just last week, the full committee heard from a panel of education 
officials about the appropriate federal role in ensuring 
accountability. These experts agreed the current system does not offer 
the flexibility necessary to address circumstances at the state and 
local level. As one witness stated, ``The arbitrary bar and lack of 
flexibility has made it difficult for states to advance bold 
accountability agendas that serve their schools and students well.''
    Instead of forcing a narrow and inflexible system on states and 
school districts, the federal government should encourage state and 
local officials to create new approaches for measuring student 
achievement and engaging parents and community members in the 
performance of schools. Over the past few months, members of this 
committee have heard countless stories of the innovative ways 
communities and states are working to more effectively monitor student 
progress, motivate parents to play a more active role in their 
children's education, and improve transparency of important school 
performance data. The more we can encourage this kind of grassroots 
engagement in our schools, the better the result.
    In my home state of California, some 1,300 schools are persistently 
failing. Rather than stand by and wait for the federal government to do 
something about it, parents have been banding together to demand change 
in their local schools.
    Thanks to a ground-breaking ``parent trigger'' state law that 
allows a majority group of parents to spur reform in an underperforming 
public school, more communities have been inspired to take action. For 
example, the law empowered parents in Compton to push to overhaul a 
failing public elementary school by turning it into a charter school. 
Already, states like California, Texas, and Connecticut have enacted 
``parent trigger'' laws, and several other states are considering 
similar proposals. This is just one example of how folks on the ground 
are taking matters into their own hands to ensure schools are held 
accountable for student performance.
    The witnesses here today have fresh ideas about improving 
accountability and student achievement at the state and local levels. 
They have an intrinsic knowledge of the needs of their communities and 
students, and we should listen carefully to their thoughts and ideas as 
we work to redefine the federal government's role in school 
accountability. I look forward to a productive discussion on this 
critical issue with our witnesses, as well as my committee colleagues.
                                 ______
                                 
    Chairman Hunter. I would now like to recognize the ranking 
member Mr. Dale Kildee for his opening remarks.
    Mr. Kildee. Thank you very much, Mr. Chairman, and thank 
you for calling this subcommittee hearing. I was impressed by 
the quality of our discussion on accountability issues in the 
full committee last week and look forward to an in-depth 
discussion today.
    I like the use of the subcommittee. For a while 
subcommittees were kind of falling into desuetude, but it is 
nice that we are really reactivating them and have them play a 
role in writing legislation.
    I am pleased to welcome the witnesses to this hearing. 
Thank you for taking time from your very busy schedules to 
provide us with guidance on how we should strengthen 
accountability and where that should be centered or where it 
should be spread.
    The No Child Left Behind Act called for the disaggregation 
of data for low-income students, minority students, students 
with disabilities, and English language learners and shed light 
on the inequalities in our education system. Prior to the law, 
achievement among these students was masked or hidden by the 
system. A call for information and accountability was the right 
thing to do.
    Unfortunately, the one-size-fits-all approach of current 
law did not do enough to close the achievement gap. We need to 
give States the support and the flexibility they need, while 
still ensuring equal opportunity for diverse student groups. I 
hope we can adopt an approach that rewards growth and progress 
so we can better focus our resources on the districts and 
schools that need help moving students forward.
    What level of direction might come from the Federal 
Government to create coherence in a system, maintain 
accountability and increase student achievement? I 
fundamentally believe that education is a local function, a 
State responsibility, and a very, very important Federal 
concern. And that has been early on in our country, the 
development. The Michigan Constitution says the legislature 
shall provide for a system of free and public schools, and then 
gradually the local school districts wereformed by the State 
government.Then the Federal Government, because we live in a 
very mobile society, there was a role for the Federal 
Government.
    We are competing in a global economy also, and what will 
give us the edge in that competition is an educated populace. 
So I think if we can keep that balance of a local function, a 
State responsibility and a Federal concern--and we may disagree 
how much weight should be given each one of those. That is 
basically what we would agree upon is the three components, 
three elements, who have a creative interest in education.
    Increasing equity in education is crucial for our Nation's 
economic success, we know that. I remember a few years ago in 
Flint, Michigan, we had to--in order to keep the Buick plant 
open at that time, we really had to retrain workers. And much 
of that retraining was reeducating. We found that there were--
some people functionally illiterate who were able to perform, 
but not really in the new technology. So they had to--we gave 
some Federal aid there, too, to help reeducate,--retrain these 
people to operate in that new economy.
    So I look forward to the testimony today to see how we can 
improve accountability, see where accountability should be 
focused, and the role of the various levels of government in 
education. I look forward to your testimony.
    Thank you very much, Mr. Chairman.
    Chairman Hunter. I thank the ranking member.
    [The statement of Mr. Kildee follows:]

  Prepared Statement of Hon. Dale E. Kildee, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Thank you, Mr. Chairman for calling this subcommittee hearing. I 
was impressed by the quality of our discussion on accountability issues 
in the Full Committee last week and look forward to an in-depth 
discussion today.
    I am pleased to welcome the witnesses to this hearing. Thank you 
for taking time out of your busy schedules to provide us with guidance 
on how we can improve student achievement and strengthen 
accountability.
    The No Child Left Behind Act called for the disaggregation of data 
for low income students, minorities, students with disabilities and 
English language learners and shed light on the inequalities in our 
education system. Prior to the law, achievement among these students 
was masked or hidden by the system. The call for information and 
accountability was the right thing to do.
    Unfortunately, the one-size fits all approach of current law did 
not do enough to close the achievement gap. We need to give states the 
support and flexibility they need, while still ensuring equal 
opportunity for diverse student groups.
    I hope we can adopt an approach that rewards growth and progress so 
we can better focus our resources on the districts and schools that 
need help moving students forward.
    What level of direction might come from the federal government to 
create coherence in the system, maintain accountability, and increase 
student achievement? I fundamentally believe that education is a local 
function, a state responsibility, and finally a federal concern.
    Increasing equity in education is crucial for our nation's economic 
success. Our future global competitiveness rests on the education of 
our students and ensuring that all of our nation's students graduate 
ready to compete. I look forward to the testimony today. Thank you, Mr. 
Chairman. I yield back.
                                 ______
                                 
    Chairman Hunter. Pursuant to committee rule 7(c), all 
subcommittee members will be permitted to submit written 
statements to be included in the permanent hearing record. And, 
without objection, the hearing record will remain open for 14 
days to allow statements, questions for the record and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. First, Dr. Benny Gooden has served as 
superintendent of the Fort Smith Public Schools in Fort Smith, 
Arkansas, since 1986. He was installed as president-elect of 
the American Association of School Administrators in July 2011 
and will assume the presidency in 2012.
    Dr. Jay P. Greene is department head and 21st Century Chair 
in Education Reform at the University of Arkansas. Greene 
conducts research, and writes about education policy, and is 
the author of the book Education Myths.
    Ms. Laura W. Kaloi is a public policy director at the 
National Center for Learning Disabilities, where she has led 
NCLD's advocacy program since 1999.
    And Mr. Bill Jackson founded GreatSchools in 1998. 
GreatSchools compiles data on school performance and 
educational resources in order to inform parents as they 
interact with their child's school and weigh educational 
options.
    Welcome to you all. Thanks for taking the time to be here. 
Before I recognize each of you to provide your testimony, let 
me briefly explain our lighting system. You will each have 5 
minutes to present your testimony. When you begin, the light in 
front of you will be green. When 1 minute is left, it goes 
yellow. And when you are out of time, it goes red. And I would 
ask you to wrap up your remarks as best you can when the light 
goes red. After everyone has testified, Members will each have 
5 minutes to ask questions of the panel.
    I would now like to recognize Mr. Gooden, Dr. Gooden, for 5 
minutes.

         STATEMENT OF BENNY L. GOODEN, SUPERINTENDENT,
        FORT SMITH PUBLIC SCHOOLS, FORT SMITH, ARKANSAS

    Mr. Gooden. Thank you.
    Chairmen Hunter and Kline, Ranking Member Kildee, members 
of the committee, I appreciate the opportunity to address the 
committee today. My name is Benny Gooden. I am superintendent 
of the Fort Smith Public Schools in Fort Smith, Arkansas. I 
currently serve as president-elect to the American Association 
of School Administrators.
    Fort Smith is an urban community located on Arkansas' 
western border with Oklahoma. Fort Smith Public Schools serve 
more than 14,000 students. The demographic characteristics 
include a district poverty rate approaching 70 percent, almost 
5,000 students with non-English home languages, and an ethnic 
mix which results in no single group majority in the district 
or in more than half of the district's 26 schools.
    Students entering our schools bring widely differing skills 
to the starting line. During the past decade we have 
experienced every aspect of the NCLB protocol. As a diverse 
district with large subgroups in several areas, there is no 
refuge in small sample sizes to shield schools from 
accountability. In fact, many of our schools will present 
challenging students who will be counted in several different 
subgroups to the detriment of each. We have seen schools defy 
the odds and meet the targeted goals, while others face the 
disappointment when one subgroup or another will result in the 
dreaded label ``failing school.''
    Recently we saw two of our persistently low-performing 
elementary schools meet standards. Both schools are more than 
90 percent free and reduced lunch qualifiers, with non-English 
background students in the majority. There was no simple 
formula they applied to make the required progress. Their 
success was a persistent concentration on performance data, the 
use of formative assessments to guide instruction, and a rich 
menu of in-time professional development to build capacity in a 
dedicated teaching staff. As for the teachers and principals, 
this was the hard work of public education.
    We are not at the finish line, and under the current 
standards it is unlikely that we will ever be at the desired 
level of performance in every school or every subgroup.
    As Congress pursues a process of ESEA reauthorization, it 
is worthwhile to note the successes that we have had. These 
include articulating the imperative to serve all children; 
requiring that performance data be disaggregated, and using the 
power of data to focus upon relative achievement needs; and 
emphasizing transparency regarding our results.
    All of these successes should be continued and enhanced to 
emphasize accountability and expand that accountability to 
include all schools.
    There are a number of issues which must be addressed in the 
interest of college and career readiness. These include the 
fact that many State assessment systems fail to instill 
confidence that they measure performance uniformly. While few 
of us would endorse a national test, moving toward a commonly 
accepted set of standards and assessments is needed.
    Using a single test to gauge student and school success 
fails to support targeted teaching and leads to the 
mischaracterization of schools. Using multiple measures to 
reflect student achievement will help ensure appropriateness in 
testing. Adding formative assessments will make the process of 
assessing accountability both valid and reliable.
    Using a pass-fail system in which unsuccessful performance 
by one or a small group of students brands an entire school or 
district as failing is inconsistent with what educators and the 
public know about groups of students or schools.
    The sanctions which are included in NCLB are inconsistent 
with what we know about school improvement or about the 
motivation of professionals. Closing the school or replacing 
the existing principals and teachers is not appropriate or 
reasonable in many rural and urban settings.
    An important part of the accountability system must 
continue to address high school completion. However, the 
comparative methodologies must be refined and standardized to 
reflect the realities of our adolescent society.
    The overriding effects of poverty in many communities 
simply cannot be ignored.
    Locally we have quickly realized that there is no silver 
bullet of school improvement; however, there is an array of 
research-based practices which will yield measured progress. 
Are we accountable? Of course. With a system which is 
transparent and coherent, and with a system which acknowledges 
the well-known fact that one size does not fit all, Congress 
can build on what we know to take our schools to where we must 
be. Educators want to work with you toward these goals. Thank 
you.
    Chairman Hunter. Thank you, Dr. Gooden.
    [The statement of Mr. Gooden follows:]

     Prepared Statement of Benny L. Gooden, Ed.D., Superintendent,
               Fort Smith Public Schools, Fort Smith, AR

    Chairmen Hunter and Kline, Ranking Member Miller, and Members of 
the Committee: I appreciate the opportunity to address the Committee 
today on issues relative to the reauthorization of the Elementary and 
Secondary Education Act (ESEA).
    My name is Benny L. Gooden and I am Superintendent of the Fort 
Smith Public Schools in Fort Smith Arkansas. I am speaking to you with 
more than 45 years in public education in both rural and urban 
settings. I am in my 37th year as a superintendent with service in both 
Arkansas and Missouri. I currently serve as President-elect of the 
American Association of School Administrators. Fort Smith is an urban 
community located on Arkansas' western border with Oklahoma. The Fort 
Smith Public Schools serve more than 14,000 students. The demographic 
characteristics include a district poverty rate approaching 70% based 
on free or reduced meal qualifiers, almost 5,000 students with non-
English home languages and an ethnic mix which results in no single 
group majority in the District or in more than one-half of our 26 
schools.
Understanding the Environment
    Students entering our schools bring widely differing skills to the 
starting line. Some have had a rich array of home and community 
experiences and are ready and eager learners. Others come from a 
background which has done little to prepare them for active academic 
growth.
    During the past decade we have experienced every aspect of the No 
Child Left Behind protocol. As a diverse district with large subgroups 
in several areas, there is no refuge in small sample sizes to shield 
schools from accountability. In fact, many of our schools will present 
challenging students who will be counted in several different subgroups 
to the detriment of each. We have seen schools defy the odds and meet 
the targeted goals, while others face the disappointment when one 
subgroup or another will result in the dreaded label ``failing school'' 
as the newspapers often trumpet.
    Recently we saw two of our persistently low performing elementary 
schools meet standards--reflecting growth of proficient or advanced 
students of more than 20%. Both schools are more than 90% free and 
reduced lunch qualifiers with non-English background students in the 
majority. There was no simple formula they applied to make the required 
progress. Their success was a persistent concentration on the 
performance data, the use of formative assessments to guide instruction 
and a rich menu of in-time professional development to build capacity 
in a dedicated teaching staff. As for the teachers and principals, this 
was the hard work of education.
    We are not at the finish line, and under the current standards it 
is unlikely that we will ever be at the desired level of performance in 
every school or subgroup. However, the morale of teachers who see 
growth and know that they are appreciated for their work and recognized 
for their accomplishments will ensure continued progress. You see, we 
were attempting to ``leave no child behind'' long before that phrase 
was attached to a piece of federal legislation.
Learning from Experience with NCLB
    As Congress actively pursues the process of ESEA reauthorization, 
it is worthwhile to note successes from the previous Act and our 
experiences during the last decade in schools throughout America. Some 
positive highlights the 2001 Act, No Child Left Behind as it is known 
include:
    <bullet> As the name implies, articulating the imperative to serve 
all children made an important statement. While most serious educators 
understand this imperative, it has been positive to emphasize it as a 
matter of public policy.
    <bullet> Requiring that performance data be disaggregated in order 
to see relative success among several subgroups heightened awareness 
and made educators accountable for all students. Using the power of 
data to focus upon relative achievement needs validates successes while 
bringing low performers into clearer focus.
    <bullet> Emphasizing transparency regarding results has increased 
the awareness of stakeholders and the public regarding the need for 
improved student performance among all groups. This aspect of 
accountability will continue to engage parents and the public regarding 
the challenges and successes schools experience at the local, state and 
national levels.
    These successes in the current legislation should be continued and 
enhanced during reauthorization to further emphasize accountability 
with integrity for all schools. Any federal accountability mandates 
should be applicable to all schools.
    There are a number of issues which must be addressed in the 
reauthorization if ESEA is to move schools and students to increased 
levels of college and career readiness. Necessary changes of which 
educators and the public are keenly aware include:
    <bullet> Many state assessment systems fail to instill confidence 
that they measure performance uniformly. Fifty different sets of 
standards and assessments to measure them simply fail to provide the 
evidence of performance which accountability requires. This disparity 
was recently reported in a Wall Street Journal article which detailed 
the different standards for passage relative to the only real 
nationwide measurement, the NAEP. This report was based on an analysis 
produced for the U.S. Department of Education. While few would endorse 
a ``national test,'' moving toward a commonly accepted set of standards 
and assessments should result in confidence that expectations--the 
basis for accountability--will be comparable in California, Maine, 
Washington and Florida--and all the states in between. This will give 
parents some assurance that their schools are on par with others.
    <bullet> Using a single test to gauge student and school success 
fails to support targeted teaching and leads to the mischaracterization 
of schools. This factor undermines acceptance of an assessment and 
accountability system by educators and a skeptical public. In 
consideration of the range of needs students bring to our schools--from 
disabilities to language minority--using a single measure to determine 
success is frustrating to students and parents and demeaning to 
educators who know that this is not consistent with best professional 
practice. Using multiple measures to reflect student achievement will 
help ensure appropriateness in testing. Adding formative assessments 
will make the process of assessing for accountability valid and 
reliable.
    <bullet> Likewise, using a ``pass/fail'' system in which 
unsuccessful performance by one or a small group of students brands an 
entire school or district as ``failing'' is inconsistent with what 
educators and the public know about groups of students or schools. This 
factor has been affirmed by a sequence of Gallup Polls in which an 
increasing percentage of the poll respondents hold unfavorable views of 
NCLB as a tool to improve schools. Parents and teachers find it 
incredible that a scorecard for adequate yearly progress can include 
more than 40 ways to fail with uniform consequences whether one or 
three dozen categories of students fail to measure up. Simply stated, 
it is difficult to find thoughtful educators, parents or the public who 
accept a 100% performance standard with onerous penalties for failure 
to reach the goal--regardless of the presence of many factors outside 
the control of the educators who are held accountable. This is not 
unlike assigning an aging competitor like me to run the 1,000 meter run 
with a prescribed time standard--and to use the same time standard for 
another competitor like my daughter who is half my age and who 
regularly competes in triathlons.
    <bullet> The sanctions which were included in NCLB and which are 
proposed for continuation under the Department of Education blueprint 
are inconsistent with what we know about school improvement or the 
motivation of professionals. Closing the school or replacing the 
existing principals and teachers because a group of students has failed 
to reach the standard is not appropriate or reasonable in many rural 
and urban settings. As former Secretary of Defense Donald Rumsfeld once 
noted in another context, ``As you know, you go to war with the army 
you have, not the army you might want or wish to have at a later 
time.'' Schools will improve student performance by supporting those 
teachers and principals who work there every day and by giving them the 
resources and building their capacity to address the student needs that 
emerge. We are unlikely to reach our goals by demeaning the very 
educators we count on to get the results.
Improving ESEA for America's Schools
    Congress can take several direct steps to ensure high standards and 
accountability for reaching them while building on best practices and 
using strategies supported by research.
Assessment Strategies
    We must use multiple measures which are appropriate for the content 
and students being assessed. Assessing students with serious 
disabilities using the same instrument used on the highest academic 
performers is highly problematic and fails to address individual needs. 
Provisions for portfolio assessments have been so restrictive that they 
do not sufficiently address this issue. Likewise requiring students 
with little or no facility in English to sit for a test they cannot 
comprehend is counterproductive for all concerned. Great teachers 
agonize in disbelief at a federally mandated policy which requires 
practices that they know are not only contrary to best professional 
practice, but which defy common sense. In this context, test design and 
implementation should be the purview of the states and must include 
adaptive assessments which are designed for the context in which they 
are used. This imperative mandates the use of a variety of assessment 
tools which are a fit for a variety of situations.
    Formative assessments should be used to guide instruction and to 
reflect student growth over time. The current ``high stakes'' test 
administered annually for accountability is little more than an 
educational autopsy. Such tests are of little value in guiding 
instructional improvement. Similarly, using only the proficient or 
advanced performers as contributors to adequate yearly progress 
determinations diminishes the significance of assessments for those 
whose progress has not reached the proficient standard. These students 
and their teachers need the motivation to show significant growth among 
even the lowest performers.
    In consideration of this factor, the Fort Smith Public Schools have 
targeted students scoring below basic on the state Benchmark exam for 
special attention. This targeted instruction by our best staff has 
resulted in a dramatic reduction of total students in this category. We 
are now at the point where we believe that a ``zero out'' goal is 
within our grasp. For these persistently challenged students, raising 
their performance to higher levels literally means the difference 
between a bleak future and one which presents hope and the potential 
for success.
Accountability for Results
    Success for all schools and students must be an attainable goal. 
The 100% goal is noble, but it is unlikely to be achieved if rigor in 
teaching and testing is to be emphasized. Measuring growth is critical 
and must be an integral part of any accountability system. A fair and 
balanced system includes absolute levels of attainment with credit for 
growth over time. A focus on individual students and their longitudinal 
progress must be a component in any improved accountability system. 
Simply looking at different cohorts and noting their relative 
performance reveals very little about real progress.
    The overriding effects of poverty in many communities cannot be 
ignored. The 2011 Kids Count data released by the Annie E. Casey 
Foundation documents the steady increase in the percentage of students 
in America living in poverty. This factor is especially prevalent in 
the South. A challenging economy has only exacerbated this situation. 
By failing to acknowledge the pervasive impact which intractable 
situational and generational poverty has on families and the children 
in our schools, we are attempting to do the educational equivalent of 
treating an epidemic of a contagious disease by raising the 
requirements for health care workers and punishing them as more cases 
appear.
    An important part of the accountability system must continue to 
address high school completion. The Diplomas Count project continues to 
document the abysmal graduation rates reflected in school districts 
large and small across America. While the Fort Smith Schools have been 
recognized by the Diplomas Count report as ``beating the odds'' and 
``overachieving'' and while we lead large districts in our state, our 
performance is not enough. Nonetheless, when the completion methodology 
is finalized, it is essential that factors outside the control of 
schools be considered. Just as a four-year college degree is a faint 
memory for which parents dream in today's higher education market, so a 
rigid four-year high school cohort measurement is inadequate. 
Consideration must also be given to career and technical students whose 
apprenticeship or modified instructional programs vary from the 
traditional norm. The entire methodology must be refined and 
standardized to reflect the realities of our adolescent society.
    High school improvement is a heavy lift. At the core of improving 
high schools must be enrolling more students into more challenging 
classes while increasing rigor in all classes. Fort Smith's two high 
schools have emphasized Advanced Placement courses. While our more 
affluent high school has been a leader in AP enrollment and performance 
for many years, enrollment was significantly lower at our more diverse 
campus as many students believed that AP classes were for others, but 
not for them. Through participation in the AAIMS initiative, AP 
enrollment has more than doubled and the district-wide test performance 
has continued to be strong. Rigor pays dividends for students as we 
raise expectations. The data continue to support more rigor and can be 
used to guide students to college and career readiness.
    The sanctions and models for turnaround mandated for schools which 
fail to reach the arbitrary adequate yearly progress goal are quite 
narrow and present no real choices in some communities. Washington does 
not know best in addressing low performance. The state education 
agencies can and must hold local schools accountable for improving 
student academic progress in a quest for rigorous college and career 
readiness for every student. However, what is best for a school in 
rural Arkansas may be vastly different from the remedy for a school in 
urban Chicago. Selecting remedies is not something easily done from 
Washington--and sometimes, not even from Little Rock. Technical 
assistance to support local efforts is definitely appropriate, but a 
narrow menu of mandated actions has not been found to be successful.
    Some of our most challenging campuses with more than 90% poverty, 
ethnic diversity, more than 50% limited English students, and a highly 
mobile population demonstrate growth--if not achieving adequate yearly 
progress. Various campuses find successful strategies which may vary--
just as the neighborhood culture varies. The common ingredients which 
yield results are a committed faculty and school leadership with 
support from skilled professionals appropriate to the school's needs. 
Transforming these campuses from advanced school improvement status to 
achieving is a source of justifiable satisfaction to those educators 
who chose to work in a challenging environment.
    The only way schools in Fort Smith, in New York or across America 
will be able to compete with those international counterparts against 
whom we are often measured is through a strong corps of trained 
teachers and school leaders. When Marc Tucker recently released a paper 
for the National Center on Education and the Economy comparing school 
reform initiatives currently in vogue in the United States with 
practices in the highest-performing countries, the message was 
compelling. All our emphasis on testing, sanctions, choice, competition 
and other popular trends appears to be absent in some of the highest 
achieving countries. Despite the many demographic and systemic 
differences between our nations, our successful counterparts recruit 
teachers from among the most able students in our high schools and 
colleges, compensate them well and give them the respect and support 
afforded to the most elite professionals in the various nations. We 
might want to consider some of these examples as long-term strategies 
to help our system of public education to improve its performance.
    Locally, we have quickly realized that there is no ``silver 
bullet'' of school improvement. However, there is an array of research-
based practices which will yield measured progress. At the top of the 
list must be a culture of instructional leadership by school 
principals. Building the knowledge base and helping principals to be 
true instructional experts is critical. In a related way, the placement 
of highly proficient instructional facilitators in struggling schools 
makes it possible to provide in-time professional development 
opportunities for teachers which are directly related to the student 
needs of the day. Collaboration opportunities for teachers and the 
collegial focus on school-wide instruction are also vital for 
improvement to occur. Specific professional development to address 
needs at a particular campus is a must. Many English language learners 
(ELL) requires training for all staff who will serve these students. 
The Fort Smith Schools made a significant investment of available funds 
in the area of professional development to build capacity in staff who 
serve the ELL population.
Our Imperative
    In summary, public education is the vehicle which can determine the 
difference between bright futures and lifetimes of failure and 
dependency. Are we accountable? Of course! With a system which is 
transparent and coherent, and with a system which acknowledges the 
well-known fact that one size does not fit all, Congress can build on 
what we know to take our schools where we must be. The system leaders, 
building leaders and teachers in schools throughout America eagerly 
anticipate a positive reauthorization.
                               references
Bandeira de Mello, V. (2011), Mapping State Proficiency Standards Onto 
        the NAEP Scales: Variation and Change in State Standards for 
        Reading and Mathematics, 2005--2009 (NCES 2011-458). National 
        Institute of Education Sciences, U.S. Department of Education, 
        Washington, DC: Government Printing Office.
Bushaw, William J., & Lopez, Shane J. (2010). A Time for Change: The 
        42nd Annual Phi Delta
Kappa/Gallup Poll of the Public's Attitudes Toward the Public Schools. 
        Kappan, V92 N1, 8-26.
Edweek Maps, (2011). Education Week: Diplomas Count, www.edweek.org/go/
        gradmap.
``Identifying Overachievers,'' (2009). Education Week: Diplomas Count, 
        V28 N34, 30.
``State Profiles of Child Well-Being,'' (2011). 2011 Kids Count(r) Data 
        Book, 58.
Tucker, Marc S. (2011). Standing on the Shoulders of Giants: An 
        American Agenda for Education Reform. National Center on 
        Education and the Economy.
``21 Urban Districts Beat the Odds,'' (2010). Education Week: Diplomas 
        Count, V29 N34, 26.
                                 ______
                                 
    Chairman Hunter. I would now like to recognize Dr. Greene 
for 5 minutes.

STATEMENT OF JAY P. GREENE, 21ST CENTURY PROFESSOR OF EDUCATION 
                 REFORM, UNIVERSITY OF ARKANSAS

    Mr. Greene. Mr. Chairman, members of the committee, thank 
you for having me here to testify today. My name is Jay P. 
Greene, and I am the 21st Century Professor of Education Reform 
at the University of Arkansas. I am here today to talk with you 
about how we can best achieve high standards and improve 
outcomes in education.
    There is a large effort under way to change educational 
standards, curriculum and assessments by centralizing the 
process. This effort is based on the belief that we will get 
more rigorous and better student outcomes if standards, 
curriculum and assessments are determined, or at least 
coordinated, at the national level. It began with the use of 
Race to the Top to push States to adopt the Common Core 
Standards, but will also require national curriculum and 
assessments to be fully implemented.
    I believe the centralized approach is mistaken. The best 
way to produce high academic standards and better student 
learning is by decentralizing the process of determining 
standards, curriculum and assessments. When we have choice and 
competition among different sets of standards, curriculum and 
assessments, they tend to improve in quality to better suit 
student needs and result in better outcomes.
    One thing that should be understood with respect to 
nationalized approaches is that there is no evidence that 
countries that have nationalized systems get better results. 
Advocates for nationalization will point to other countries, 
such as Singapore, with higher achievement that also have a 
nationalized system as proof that we should do the same. But 
they fail to acknowledge that many countries that do worse than 
the United States on international tests also have nationalized 
systems. Conversely, many of the countries that do better than 
the United States, such as Canada, Australia and Belgium, have 
decentralized systems. The research shows little or no 
relationship between nationalized approaches and student 
achievement.
    If that is true, what is the harm in pursuing a 
nationalized approach? First, nationalized approaches lack a 
mechanism for continual improvement. Given how difficult it is 
to agree upon them once we set national standards, curriculum 
and assessments, they are nearly impossible to change. If we 
discover a mistake or wish to try a new and possibly better 
approach, we can't switch. We are stuck with whatever national 
choices we make for a very long time. And if we make a mistake, 
we will impose it on the entire country.
    Second, to the extent that there will be change in the 
nationalized system, it will be directed by the most powerful 
organized interests in education and probably not by reformers. 
So reformers--in general it is unwise to build a national 
church if you are a minority religion. And reformers should 
recognize that they are the political minority, and so it is a 
bad idea to build a nationalized system that the unions and 
other forces of the status quo will likely control over time.
    Third, we are a large and diverse country. Teaching 
everyone the same material at the same time and in the same way 
may work in small, homogenous countries like Finland, but it 
cannot work in the United States. There is no single best way 
that would be appropriate for all students in all 
circumstances.
    I do not mean to suggest that math is different in one 
place than it is in another, but the way in which we best 
approach math, the age and sequence in which we introduce 
material, may vary significantly. As a concrete example, 
California currently introduces algebra in the eighth grade, 
but the Common Core calls for this to be done in the ninth 
grade. We don't really know the best way for all students, and 
it is dangerous to decide this at the national level and impose 
it on everyone.
    I understand that there is great frustration with the weak 
standards, low cut-scores and abysmal achievements in many 
States, but this problem was not caused by a lack of 
centralization and cannot be fixed by nationalizing key aspects 
of education. Instead, the solution to weak State results is to 
decentralize further so that we increase choice and competition 
in education. If school systems have to earn students and the 
revenue they generate, they will gravitate toward more 
effective standards, curriculum and assessments.
    This decentralized system I am describing of choice and 
competition producing better outcomes is not purely 
theoretical. It actually existed in the United States and 
helped build an education system that was the envy of the 
world. Remember that public education was not created by the 
order of the national government. Local communities built their 
own schools, set their own standards, devised their own 
curriculum and evaluated their own efforts. At one time there 
were nearly 100,000 local school districts operating almost 
entirely autonomously.
    In our highly mobile society, people had choices about 
where to live, and communities had to compete for residents and 
tax base by offering an education system that people would 
want. Standards were raised, and outcomes improved through this 
decentralized system of choice and competition among local 
school districts.
    The progress we were making in education, however, stalled 
when we started significantly centralizing education and 
reducing the extent of choice and competition among districts. 
The policies, practices and funding of schools have 
increasingly shifted to the State and national governments, and 
greater uniformity has been imposed by unionization. The enemy 
of high standards and improving outcomes is centralization.
    Fortunately, the nationalization effort is still in its 
early stages, and there is time for Congress to exercise its 
authority and preserve a decentralized system for setting 
standards, curriculum and assessments, which is a far more 
effective way of producing progress in student learning.
    Thank you, and I look forward to any questions you may 
have.
    Chairman Hunter. Thank you, Doctor.
    [The statement of Mr. Greene follows:]

     Prepared Statement of Jay P. Greene, 21st Century Professor of
                Education Reform, University of Arkansas

    Mr. Chairman, members of the committee, thank you for having me 
here to testify today. My name is Jay P. Greene and I am the 21st 
Century Professor of Education Reform at the University of Arkansas. I 
am also a fellow at the George W. Bush Institute located at Southern 
Methodist University.
    I am here today to talk with you about how we can best achieve high 
standards and improve outcomes in education. There is a large effort 
underway to change educational standards, curriculum, and assessments 
by centralizing the process. This effort is based on the belief that we 
will get more rigorous standards and better student outcomes if 
standards, curriculum, and assessments are determined, or at least 
coordinated, at the national level. It began with the use of Race to 
the Top to push states to adopt the Common Core standards, but will 
also require national curriculum and assessments to be fully 
implemented.
    I believe this centralized approach is mistaken. The best way to 
produce high academic standards and better student learning is by 
decentralizing the process of determining standards, curriculum, and 
assessments. When we have choice and competition among different sets 
of standards, curricula, and assessments, they tend to improve in 
quality to better suit student needs and result in better outcomes.
    One thing that should be understood with respect to nationalized 
approaches is that there is no evidence that countries that have 
nationalized systems get better results. Advocates for nationalization 
will point to other countries, such as Singapore, with higher 
achievement that also have a nationalized system as proof that we 
should do the same. But they fail to acknowledge that many countries 
that do worse than the United States on international tests also have 
nationalized systems. Conversely, many of the countries that do better 
than the United States, such as Canada, Australia, and Belgium, have 
decentralized systems. The research shows little or no relationship 
between nationalized approaches and student achievement.
    In addition, there is no evidence that the Common Core standards 
are rigorous or will help produce better results. The only evidence in 
support of Common Core consists of projects funded directly or 
indirectly by the Gates Foundation in which panels of selected experts 
are asked to offer their opinion on the quality of Common Core 
standards. Not surprisingly, panels organized by the backers of Common 
Core believe that Common Core is good. This is not research; this is 
just advocates of Common Core re-stating their support. The few 
independent evaluations of Common Core that exist suggest that its 
standards are mediocre and represent little change from what most 
states already have.
    If that's true, what's the harm in pursuing a nationalized 
approach? First, nationalized approaches lack a mechanism for continual 
improvement. Given how difficult it is to agree upon them, once we set 
national standards, curriculum, and assessments, they are nearly 
impossible to change. If we discover a mistake or wish to try a new and 
possibly better approach, we can't switch. We are stuck with whatever 
national choices we make for a very long time. And if we make a mistake 
we will impose it on the entire country.
    Second, to the extent that there will be change in a nationalized 
system of standards, curriculum, and assessments, it will be directed 
by the most powerful organized interests in education, and probably not 
by reformers. Making standards more rigorous and setting cut scores on 
assessments higher would show the education system in a more negative 
light, so teachers unions and other organized interests in education 
may attempt to steer the nationalized system in a less rigorous 
direction. In general, it is unwise to build a national church if you 
are a minority religion. Reformers should recognize that they are the 
political minority and should avoid building a nationalized system that 
the unions and other forces of the status quo will likely control.
    Third, we are a large and diverse country. Teaching everyone the 
same material at the same time and in the same way may work in small 
homogenous countries, like Finland, but it cannot work in the United 
States. There is no single best way that would be appropriate for all 
students in all circumstances.
    I do not mean to suggest that math is different in one place than 
it is in another, but the way in which we can best approach math, the 
age and sequence in which we introduce material, may vary 
significantly. As a concrete example, California currently introduces 
algebra in 8th grade but Common Core calls for this to be done in 9th 
grade. We don't really know the best way for all students and it is 
dangerous to decide this at the national level and impose it on 
everyone.
    I understand that there is great frustration with the weak 
standards, low cut-scores, and abysmal achievement in many states. But 
this problem was not caused by a lack of centralization and cannot be 
fixed by nationalizing standards, curriculum, and assessments. Instead, 
the solution to weak state results is to decentralize further so that 
we increase choice and competition in education. If school systems have 
to earn students and the revenue they generate, they will gravitate 
toward more effective standards, curriculum, and assessments.
    This decentralized system I am describing of choice and competition 
producing improvement is not purely theoretical. It actually existed in 
the United States and helped build an education system that was the 
envy of the world. Remember that public education was not created by 
the order of the national government. Local communities built their own 
schools, set their own standards, devised their own curriculum, and 
evaluated their own efforts. At one time there were nearly 100,000 
local school districts operating almost entirely autonomously.
    When people became convinced that students needed a secondary 
education, these districts started consolidating to be large enough to 
build high schools. No one ordered them to consolidate and build high 
schools. They did it because they recognized that people would be 
reluctant to move into their community unless it offered a secondary 
education. That is, in our highly mobile society people had choices 
about where to live and communities had to compete for residents and 
tax base by offering an education system that people would want. 
Standards were raised and outcomes improved through this decentralized 
system of choice and competition among local school districts.
    The progress we were making in education, however, stalled when we 
started significantly centralizing education and reducing the extent of 
choice and competition among districts. The policies, practices, and 
funding of schools has increasingly shifted to the state and national 
governments and greater uniformity has been imposed by unionization. 
The enemy of high standards and improving outcomes is centralization.
    We can see this same process of setting better standards through a 
decentralized system in other domains. For example, in the video 
cassette industry there were competing standards: Betamax and VHS. If 
we had simply imposed a national standard through the government or by 
a committee of experts, we almost certainly would have ended up with 
Betamax. Sony, the producer of Betamax, was larger and more politically 
powerful than the consortium backing VHS. And experts were enamored 
with the superior picture quality offered by Betamax. But instead we 
had a decentralized system of determining the standard, where consumers 
could choose which standard they preferred rather than have it imposed 
by the government or a committee of experts. As it turns out, consumers 
overwhelmingly preferred VHS. It was cheaper and the tapes could play 
longer videos. Consumers were willing to trade-off a reduction in 
picture quality for the ability to watch an entire movie without having 
to get up in the middle to change tapes. Centralized standards-setters 
can't know the best way and impose it on everyone. It takes a 
decentralized system of choice and competition for us to learn about 
the better standard and gravitate toward it.
    In addition, if Betamax had been imposed by a centralized 
authority, we almost certainly would have been stuck with that 
technology for a long time. We would have stifled the innovation that 
produced DVDs and now Blu-Ray. Choice and competition not only allows 
us to figure out the best standard for today, but leave open the 
possibility that new standards will be introduced that are even better 
and that consumers may prefer those in the future.
    There is an unfortunate tendency in public policy to stifle this 
decentralized process of setting standards. Policymakers are often 
tempted to identify the best approach, often through a panel of 
experts, and then impose that approach on everyone. After all, if 
something is the best, why would we want to allow people to do 
something else? This is a temptation I urge you to resist in education. 
Even the best-intentioned experts have a hard time recognizing what the 
best approach would be. And once it is set by experts, there is no 
mechanism like the one we get from choice and competition for improving 
upon that whatever ``best'' standards, curriculum, and assessments are 
identified. Essentially, what we are talking about is the danger of 
central planning. It doesn't work in running the economy any more than 
it would in running our education system.
    Fortunately, the nationalization effort is still in its early 
stages and there is time for Congress to exercise its authority and 
preserve a decentralized system for setting standards, curriculum, and 
assessments. I should emphasize that the movement toward a nationalized 
system has not been voluntary on the part of the states. It was coerced 
by the U.S. Department of Education as a condition for receiving Race 
to the Top funds and I fear that coercion may be continued with the 
offer of selective waivers from No Child Left Behind requirements.
    I hope that you will help restore our decentralized system of 
setting standards, curriculum, and assessments, which is a far more 
effective ways of producing progress in student learning.
                                 ______
                                 
    Chairman Hunter. I would like to now recognize Ms. Kaloi 
for 5 minutes.

      STATEMENT OF LAURA W. KALOI, PUBLIC POLICY DIRECTOR,
           NATIONAL CENTER FOR LEARNING DISABILITIES

    Ms. Kaloi. Chairmen Hunter and Kline, Ranking Member Kildee 
and members of the committee, I am Laura Kaloi, public policy 
director for the National Center for Learning Disabilities. 
NCLD represents nearly half of the students with disabilities 
in public school. I am also here in my most important role as a 
mom. I have three children attending Virginia public schools, 
including Ethan, my 11-year-old son, who has dyslexia and 
dysgraphia.
    Fortunately, my husband and I have the education and 
capability to ensure Ethan gets what he needs. Although Ethan's 
principal had told us last year that we should just accept Cs 
might be good enough from someone like our son, I am happy to 
report that Ethan left the fourth grade with As and Bs and 
scored proficient and above proficient on the Virginia State 
assessments last June.
    Today I would like to share the parent perspective about 
the status of people with LD, how subgroup accountability shows 
us that struggling students comprise more than just students 
with disabilities, how NCLB has helped schools improve outcomes 
for students with disabilities, and what Congress can do to 
fully support the progress of students with disabilities.
    The Individuals with Disabilities Education Act, or IDEA, 
contains no provisions setting high academic expectations and 
holding schools accountable for student progress. It is NCLB 
that has provided the long-needed accountability and emphasis 
on doing what works to improve results.
    Prior to NCLB, most parents of children with disabilities 
had no idea where their child's reading or math performance 
stood as compared to their child's peers. Most students with 
disabilities were not included in State assessments and were 
not taught to State standards, and there were pervasive low 
expectations for students with disabilities. Today there are 
5.9 million students eligible for special education in public 
school. The vast majority, nearly 85 percent, are classified 
with disabilities that by definition do not include any type of 
cognitive or intellectual impairment. In fact, 42 percent are 
students with learning disabilities. I would like to say this 
again, nearly 85 percent by definition and classification by 
our schools do not have cognitive or intellectual impairments.
    2.5 million students receive services under both Title I 
and IDEA. Many are indistinguishable from students who do not 
receive special education. And, in fact, most spend more than 
80 percent of their school day in the general classroom taught 
by general education teachers.
    As reported in my organization's State of Learning 
Disabilities report, people living in poverty are most likely 
to have LD. Students with LD continue to lag behind their peers 
in reading and math. And 64 percent of students with LD 
graduated with a regular diploma compared to 52 percent in 
1999.
    As you can see, we have made great strides, yet there are 
still families waiting for their child to be college and career 
ready, and achieving a regular high school diploma is the 
golden ticket. I want this for my son, and schools should 
provide this basic opportunity to every child.
    Some people support the myth that it is only students with 
disabilities who are underperforming, and that they are the 
reasons schools can't make AYP, so they have proposed separate 
assessments and accountability mechanisms and promote that by 
taking students with disabilities out, data will automatically 
right itself. However, this just isn't true. There are millions 
of Black, Latino and poor students consistently underperforming 
in reading and math, and we aren't proposing to carve those 
students out. As one assistant superintendent stated in our 
Challenging Change report, we had an instruction problem, not a 
special education problem.
    Longitudinal research in Alabama, Hawaii, South Dakota and 
Wisconsin show that certain struggling students without 
disabilities are consistently not proficient. These students 
are male, minority and poor. We must focus on the instructional 
challenges for all of these students, and we must face the 
questions about how students with disabilities fit into a State 
accountability system.
    NCLB had a positive impact for students with disabilities 
primarily because schools and districts raised expectations for 
students with disabilities, promoted sustainable collaboration 
between general education and special education teachers, 
supported inclusive practices, assessed students with 
disabilities on the general assessment, and shared data with 
parents.
    In revising the law, please build on the most valuable 
aspects of current law, to maintain a focus on subgroup 
accountability. Transparency is not enough. Include all schools 
in any accountability system. Identify struggling learners 
early through response to intervention. Allow growth models 
that include all students. Promote universal designs for 
learning. And support more training for general and special 
education teachers.
    Yours is a difficult job. The Federal role in education is 
complicated. However, for parents the answer is simple. If 
taxes are spent to help struggling students, you must ensure 
that all students count in the very same way and are held to 
the very same high expectations.
    My friends with children with disabilities, we share one 
common goal. Our child's academic progress should matter as 
much as any other child in the school building. Ethan asked me 
last week, ``How much education do I need to be a writer, a 
bachelor's degree, a masters degree?'' Before I could answer, 
he answered himself by stating, ``I think more education is 
better, don't you?''
    I hope we can embrace the goal of every child being college 
and career ready and focus our educational resources on this 
important endeavor together. Thank you for your time.
    Chairman Hunter. Thank you, Ms. Kaloi.
    [The statement of Ms. Kaloi follows:]

           Prepared Statement of Laura W. Kaloi, MPA, Parent,
            National Center for Learning Disabilities, Inc.

    Chairman Hunter, Ranking Member Kildee and Members of the 
Committee, I'm Laura Kaloi, public policy director for the National 
Center for Learning Disabilities (NCLD) where I've advocated for 
individuals with learning disabilities (LD) for over twelve years. NCLD 
represents nearly half of the students identified with disabilities in 
our nation's public schools. I'm also here in my most important role as 
a Mom. I have three children attending public school in Virginia, 
including Ethan, my eleven year old son who has dyslexia and 
dysgraphia.
    Dyslexia and dysgraphia are language based learning disabilities 
which for Ethan, cause difficulty with short-term and working memory 
and this primarily impacts his ability to retrieve words from memory, 
remember letters and numbers in a sequence, memorize letters and 
numbers, write longhand and spell. Fortunately, I am a parent who, 
along with Ethan's Dad--who also has dyslexia--has the education, 
knowledge and capability to ensure he gets what he needs. He's also a 
very hard working boy. While Ethan's principal had told us that we 
should be happy with Cs for someone like our son I'm happy to report 
that Ethan left the 4th grade last June with As and Bs and he scored 
proficient and above proficient on the VA standards of learning tests 
in all subjects.
    Today, I'm here to share the parent perspective about:
    <bullet> the status of people with LD and how NCLB has promoted an 
increased focus and use of data in making instructional decisions for 
students with disabilities
    <bullet> how subgroup accountability and data reporting 
requirements have highlighted that struggling students comprise more 
than just students with disabilities in today's schools
    <bullet> the effective practices that schools have embraced to 
ensure meaningful change for all students, especially students with 
disabilities
    <bullet> as ESEA reauthorization proceeds, what Congress can do to 
ensure that the progress of students with disabilities moves forward as 
they are educated alongside their peers.
    While the Individuals with Disabilities Education Act (IDEA) 
mandates the provision of a free appropriate public education (FAPE) 
for students with disabilities, it contains no provisions setting high 
expectations and holding schools accountable for their progress. In 
fact, in its latest reauthorization of IDEA in 2004, Congress reminded 
us that ``the implementation of the [IDEA] Act has been impeded by low 
expectations, and an insufficient focus on applying replicable research 
on proven methods of teaching and learning'' (20 U.S.C. 
Sec. 1400(c)(4). It is NCLB that has provided the long-needed 
requirement of school accountability and emphasis on doing what works 
to improve results for students with disabilities.
    Prior to the passage of NCLB, most parents of children with 
disabilities had no idea where their child's performance stood in 
reading and math as compared to their child's peers. Most states had 
ignored a 1997 requirement in IDEA law ``to develop guidelines for the 
participation of children in alternate assessments for those children 
who cannot participate in State and district-wide assessments...'' 
which was intended for students with the most significant cognitive 
disabilities. Therefore, most students with disabilities were not 
included in state assessment systems. Unfortunately, once NCLB was 
passed, pervasive low expectations for students with disabilities led 
some schools and districts to react negatively to the new requirements 
of NCLB--the thought that students with disabilities should be expected 
to achieve meaningful academic progress seemed completely unattainable 
by some school professionals. Mainly, this was due to the fact that 
until NCLB's passage in 2002, schools had not provided curriculum to 
these students that focused on state standards. It was the rare parent 
that had been able to ensure that their student with a learning 
disability was included in the core work and making progress with the 
additional support that special education is intended to provide.
    According to the U.S. Department of Education, there are 5.9 
million students eligible for special education under the nation's 
federal special education law--the Individuals with Disabilities 
Education Act (IDEA)--in public school today. The vast majority--nearly 
85%--are classified with disabilities that by definition do not include 
any type of cognitive or intellectual impairment. In fact, 42% are 
students with LD.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There are 2.5 million students receiving services under both Title 
I and IDEA and many are indistinguishable from students who do not 
receive special education services. In fact, most students with 
disabilities spend the vast majority of their school day in general 
education classrooms--taught by general education teachers--using the 
same instructional materials as all other students in the class. And 
their parents have the same aspirations for their success in life.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As reported in NCLD's State of Learning Disabilities report:
    <bullet> people living in poverty are most likely to have LD
    <bullet> Students with LD continue to lag behind their peers in 
reading and math
    <bullet> 55% of adults with LD are employed compared to 76% of 
general population
    <bullet> 64% of students with LD graduated with a regular diploma 
compared to 52% in 1999 and 22% dropped out compared to 40%.
    These statistics demonstrate both the good and the bad news 
regarding the status of people with LD. We've made good strides yet 
there are still thousands families waiting to see their child 
experience the reality of being college and career ready. Parents know 
that achieving graduation with a high school diploma is the golden 
ticket to moving on to college or meaningful career training. I want 
this for my son and I want you to send a strong message to states that 
we should expect every child to have this opportunity.
    As we all know, there are those that continue to stand by the myth 
that it is only students with disabilities who are struggling and 
underperforming and that students with disabilities are the reason 
schools can't make Adequate Yearly Progress (AYP). So, they purport 
that by creating a separate assessment system, a separate reporting 
system and accountability mechanism(s) that the data would just 
automatically right itself and abracadabra, we're good--every other 
student is on target. However, this just isn't true. As reported this 
year by the U.S. Department of Education:
    <bullet> only 24% of schools miss AYP for just one subgroup, and of 
those, just 14% miss ONLY for the students with disabilities subgroup.
    <bullet> Only 30% of schools are held accountable for the students 
with disabilities subgroup in AYP due to `N' size.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since NCLB's passage, much research has been conducted and data 
examined to see what is really happening in schools and districts. 
Through the lens of disaggregated data and reporting on subgroups, we 
know there are millions of struggling students in schools. Such 
students are Black, Latino and poor and they consistently underperform 
in reading and math--and we aren't proposing policy fixes to carve 
those students out because of their learning gaps. As one assistant 
superintendent stated in our report Challenging Change, `we had an 
instructional problem, not a special education problem.' (Cortiella, 
C., Burnette, J. (2008). Challenging Change: How Schools and Districts 
are Improving the Performance of Special Education Students. New York, 
NY: National Center for Learning Disabilities.)
    Both best practice and current research show us that when 
principals use their data to understand how students are performing and 
provide teachers with the training and support they need, the 
difference this can make in the progress of any struggling student is 
monumental.
    As Abigail, an 8th grader with LD said,''Finally in third grade I 
found a teacher that changed my life. She never gave up, even when I 
gave up on myself. She taught me nothing is impossible even if you have 
a disability.''
    My son Ethan's 4th grade teacher made this kind of difference. She 
connected with his interest in fantasy novels, encouraged him to tell 
her what was going on in his book and patiently taught him to write 
about it with complete and what we call `juicy sentences.' She made 
sure he used a word processor so he could type it instead of write it 
and taught him that editing is just part of every good student's life. 
Because of this support at school and at home, he went from a low C to 
a solid A in writing. This is a different kid than the one who hated 
school in 3rd grade.
    Furthermore, longitudinal research that examined student-level 
demographic data in four states (AL, HI, SD, WI) showed that certain 
struggling students--those without disabilities--often called 
persistently low performing students consistently are not proficient 
year in and year out on state assessments. Findings show these 
students--in all 4 states are male, minority and poor. (Lazarus, S., 
Wu, Y-C., Altman, J. & Thurlow, M. 2010). Additionally, an examination 
of 4th grade math in one state shows us that the lowest performers are 
not solely students receiving special education.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As you can see, and it's no surprise to parents--students with 
disabilities are even performing above the range--which is where we 
need to set our sites for the majority of students with disabilities.
    As author of How It's Being Done, Urgent Lessons from Unexpected 
Schools, Karen Chenoweth stated:
    ``I can't even remember all the times I have heard the sentiment, 
``If they could meet standards they wouldn't have a disability,'' a 
statement that betrays both a profound misunderstanding of disabilities 
and the role special education services is supposed to play, which is 
helping to shape and scaffold instruction in order to provide access to 
the general curriculum.''
    If we are to believe that is only students with disabilities who 
are struggling and underperforming in our schools, we are mistaken and 
being misled by those who continue to stand on this false premise. As 
stated earlier, it is an instructional challenge we face in this 
country and parents want you to help our schools do something about it.
    It's imperative that we face head-on the question you have grappled 
with regarding how students with disabilities fit into a state's 
accountability system. To do this, we must be open to:
    <bullet> understanding how NCLB has positively changed the 
landscape for students with disabilities in many schools and districts
    <bullet> using the data and best practice to reframe the policy 
discussion
    Since public opinion data show that people continue to believe that 
students with disabilities:
    1. Cannot achieve grade level standards
    2. Take the same tests as their peers; or
    3. Gain a regular high school diploma
    NCLD has partnered with national organizations to commission 
reports, review valid research, document findings, promote best 
practices, and survey parents and teachers. Our findings, along with 
others such as the National Center on Educational Outcomes (NCEO) and 
other reports funded by the U.S. Department of Education do show that 
NCLB has had a positive impact on not only the academic performance and 
outcomes for many students with disabilities, but it has forced schools 
and districts to:
    <bullet> raise expectations for students with disabilities which 
are the single most common and important component of achieving change. 
To end the practice of making excuses and blaming the kids for their 
achievement and to look at these students as general education students 
first.
    <bullet> promote sustainable collaboration between general and 
special education teachers which can range from requiring dual 
certification for all personnel to pairing general education and 
special education teachers in classrooms. Collaboration extends to 
professional development, with teachers forming teams to attend 
professional development activities.
    <bullet> support inclusive and school wide practices as the 
cornerstone of their improvement plan(s) so that the general education 
curriculum is used in instruction and the general and state assessment 
are the reference point for all student teaching and learning.
    <bullet> use data from a multi-tier system of supports or response 
to intervention program to make instructional decisions so that 
teachers can use formative and summative data to design and target 
instruction and interventions. Many states and districts are developing 
a school-wide framework or multi-tier system of supports (response to 
intervention/RTI) so early help can be provided to all students, 
including those eligible for IDEA before their learning gaps become 
significant and imped their learning. This has contributed to reducing 
the overall identification of students for special education; in fact, 
the LD identification rate is down by 14% over the past ten years.
    <bullet> Assess students with disabilities on the general 
assessments with accommodations as appropriate, end out-of-level 
testing and give alternate assessments to only a very small number of 
students with the most significant cognitive disabilities.
    <bullet> share data with parents and the community as they are the 
ultimate judge of whether the school is providing the skills their 
children will need as adults. Parents can be active partners in their 
child's education when there is interactive communication about student 
learning.
    We know the law needs significant change and parents hope you will 
build on the most valuable aspects of the law and rely on both research 
and practice to create even stronger educational opportunities for all 
students. Such improvements should:
    <bullet> Maintain a focus on student subgroup performance--
transparency and access to the data, while wonderful for parents and 
families, is not enough. We need to know that our child's performance 
counts just as all other students in the school.
    <bullet> Include all schools in an accountability system which 
includes uniform calculation, reporting and targets for graduation from 
high school. Simply having Federal consequences for the bottom 5 to 15% 
of schools will eliminate accountability for the vast majority of 
students with disabilities.
    <bullet> Identify struggling learners early and provide targeted 
instruction and/or interventions (e.g. MTSS/RTI, PBIS).
    <bullet> Allow use of growth models that must include students with 
disabilities and ensure that the growth targets both help catch up 
students and keep them on track to graduate from high school with a 
regular diploma.
    <bullet> Promote Universal Design for Learning and use of 
technology to improve access to general curricula and assessments. Too 
many students with disabilities struggle unnecessarily with poorly 
designed pencil-and-paper assessments that test their disability rather 
than their ability.
    <bullet> Support teacher training that ensures general and special 
education teachers have the skills and knowledge necessary for teaching 
grade-level content and diverse learners.
    Mr. Chairman, Ranking Member Kildee and members of the committee--
yours is a difficult job. The federal role in education is complicated; 
however, for parents, the answer is quite simple. If our tax dollars 
are to be spent on improving educational opportunity and providing 
educational benefit to the struggling students in this country then 
please make sure any district and school using that money has 
sufficient guidelines and requirements to ensure that ALL students 
count in the same way and are held to the same high expectations.
    The parents I work with professionally have children diagnosed with 
all types of disabilities and we all share one common goal--our 
children should matter as much as any other in the school building. But 
most importantly, our children want to learn and play and have the same 
goals as their friends. Ethan asked me last week: how much education do 
I need to be a writer--a bachelor's degree, a master's degree? Before I 
could answer, he answered himself by stating--I think more education is 
better, don't you? It's my wish that we really could embrace the goal 
of every child being college and career ready and focus our educational 
resources and efforts on this important endeavor together. Thank you 
again for this time.
                                 ______
                                 
    Chairman Hunter. Mr. Jackson, you are recognized for 5 
minutes.

    STATEMENT OF BILL JACKSON, FOUNDER AND CEO, GREATSCHOOLS

    Mr. Jackson. Thank you, Chairman Hunter, Chairman Kline and 
Ranking Member Kildee, and members of the committee. My name--
well, I want to thank you for inviting me to speak with you 
today about parent-driven school accountability and how school 
performance data can facilitate that.
    My name is Bill Jackson, and I am the founder and CEO of 
GreatSchools. Our mission--we are a nonprofit organization with 
a mission of improving education by informing parents and 
engaging and supporting them to play their role in their 
child's success. And perhaps more importantly I am also the 
father of two girls, sixth grade and fourth grade.
    GreatSchools began publishing an online guide to schools at 
about the same time that ESEA was reauthorized in 2002. Our 
guide at www.greatschools.org provides a wide range of 
information about America's 129,000 K-12 schools, everything 
from official State test data to parent reviews. We know that 
parents want this information because last year 19 million 
parents representing approximately 43 percent of American 
households with K-12 children came to greatschools.org to get 
information about school performance. In addition, almost 1 
million Americans have signed up for weekly emails from grade 
schools that provide insight into their children's school 
performance.
    The parents we serve represent a diverse cross-section of 
American families, and they tell us that school performance 
information is invaluable to them. On an individual--on an 
individual level it helps them choose the right school for 
their child and their family. Collectively it helps parents 
hold schools accountable. They use this data to start 
conversations, sometimes difficult, with teachers, principals 
and school boards.
    From our perspective, the 2002 reauthorization of ESEA 
provided an invaluable new asset to parents: better data about 
the performance of children and schools. With this in mind, we 
would like to offer three recommendations as you consider next 
steps.
    First, don't back down on performance data transparency. 
School performance data is like sunshine for parents. The data 
should continue to be disaggregated. And along with absolute 
test score data, growth data, as my colleagues have mentioned, 
can shed important insight into how much schools are helping 
students grow. It is valuable to parents.
    Further, it is critical that school performance data be 
continued to be--continue to be made available to third 
parties. Today the evidence suggests that more parents are 
getting information from third-party sources than from official 
government databases. We have more opportunity, more freedom to 
experiment and innovate to make data understandable to parents.
    Second, ensure that proficiency means what it says. When a 
State tells parents that their children are proficient, parents 
believe it. Unfortunately, today, however, too many States are 
setting the bar too low. As the Governor of Tennessee and the 
U.S. Secretary of Education recently remarked on CNN, some 
States are essentially lying to parents about whether their 
children are mastering the academic skills they will need to 
get good jobs and take their place in the world.
    This does not mean that all States must have the same 
standards and assessments. Some States involved with the Common 
Core and their related assessments are embarking on what we 
believe is a promising approach to providing parents with an 
honest assessment of their children's progress towards college. 
Texas has a different and also promising approach. The K-12 and 
higher education system got together and they agreed that when 
students passed--high school students passed the requisite 
test, they are indeed ready for college in Texas. Ultimately 
all that matters is that parents have confidence that the 
proficient label means what it says.
    And finally, catalyze innovation to make accountability 
more personal for American families. Many people, after the 
passage of ESEA in 2002, I believe, expected that with 
increased data sunshine, with more parents able to see how 
schools and their students were doing, in some cases--in many 
cases--not proficient, that parents would in a sense storm the 
barricades to demand better schooling for their children. This 
has not happened.
    Now, ultimately, I don't think, we don't think, that the 
Federal Government can mandate a certain level of school 
performance. That is up to local governments, State governments 
and ultimately the people, the parents, who have to have it in 
their minds and hearts that they want the education system to 
prepare their children. But I do suggest in the written 
testimony a variety of approaches where policymakers could lay 
the groundwork and create the conditions under which that 
grassroots demand might grow.
    Thank you for the opportunity to speak to you about these 
issues, and I look forward to a discussion.
    Chairman Hunter. Thank you, Mr. Jackson.
    [The statement of Mr. Jackson follows:]

   Prepared Statement of Bill Jackson, Founder and CEO, GreatSchools

    Good morning Chairman Hunter, Ranking Member Kildee, and members of 
the Committee. Thank you for inviting me to speak with you today about 
school performance data and how it facilitates parent-driven school 
accountability.
    My name is Bill Jackson. I am the founder and CEO of GreatSchools, 
a national nonprofit based in San Francisco, CA. Our mission is to 
improve education by inspiring and guiding parents to support their 
children's education. I'm also the father of two girls, one in fourth 
grade, the other in sixth.
    GreatSchools began publishing a national online guide to K-12 
schools around the same time ESEA was last reauthorized in 2002. Our 
guide at www.greatschools.org provides a wide range of information 
about America's 129,000 K-12 schools, with everything from official 
state test data to parent reviews. Today, we are the leading source of 
information about school quality for parents nationwide, reaching 
millions of parents with the information they need to make good school 
choice decisions and to advocate for improvements at their children's 
schools. We also run programs in Milwaukee, WI and Washington, DC to 
help low-income parents make informed choices about where to send their 
children to school.
    We know that parents want this information because last year 19 
million parents--representing approximately 43 percent of American 
households with children--came to GreatSchools.org to get information 
about school performance. In addition, almost 1 million Americans have 
signed up for weekly emails from GreatSchools.org that provide insight 
into their children's school and information about how they can be 
involved in their children's education.
    The parents we serve represent a diverse cross-section of American 
families, and they tell us that school performance information is 
invaluable to them. On an individual level, this information helps 
parents find and choose better schools for their children. But it also 
empowers parents to make their children's schools more accountable. 
They use this data to start conversations with teachers, principals and 
school board, giving parents facts that allow them to speak with ``the 
experts'' about challenging issues.
    From our perspective, the 2002 reauthorization of ESEA provided an 
invaluable new asset to parents seeking a great education for their 
children: better data about the academic performance of students and 
schools. With this in mind, we'd like to offer three recommendations as 
you consider next steps.
First: Don't back down on performance data transparency
    School performance data is like sunshine for parents. Parents need 
data to make good decisions about their children's education. The data 
should continue to be disaggregated so that families can see how 
different groups of students are performing in schools and districts.
    Along with ``absolute'' test score data, ``growth'' data that sheds 
light on how much schools are improving student academic skills is also 
valuable to parents. To the maximum extent possible, parents should be 
provided with data that shows whether or not their own children are 
making progress.
    Further, it is critical that school performance data continue to be 
made available to third parties, like GreatSchools, so that we can 
present it to parents in accessible ways. Today, the evidence suggests 
that more parents are getting school information from third-party 
sources than from official government databases. As third parties get 
access to better data--such as information about student academic 
growth--we will be able to continue to innovate and provide even more 
value to parents.
Second: Ensure that ``proficiency'' means what it says it means
    When a state tells parents that their children are ``proficient,'' 
parents believe their children are on track academically. When they 
believe this, they are less likely to ask tough questions, move their 
children to another school, or band together with other parents to 
advocate for improvements.
    Unfortunately, today many states are setting the bar too low. As 
the governor of Tennessee and the US secretary of education 
acknowledged in a CNN interview earlier this year, many states are 
essentially ``lying'' to parents about whether their children are 
mastering the academic skills they will need to get good jobs and to 
take their place in the world.
    We believe that American parents deserve an honest assessment of 
how their children are doing.
    This does not mean that all states must have the same standards and 
assessments--but that parents have reasonable confidence that these 
standards and assessments mean what they say they do. Indeed, there are 
different ways of accomplishing this. Some states are involved with the 
Common Core Standards and related assessments. This effort is a 
promising approach to providing parents with an honest assessment of 
their children's progress toward college- and career-ready graduation.
    Texas has a different and also promising approach: the K-12 and 
higher education systems have agreed on standards and assessments for 
K-12 students. The state higher education system is certifying that 
when high school students pass the requisite exams, they are indeed 
ready for college.
    Ultimately, all that matters is that parents have confidence that 
the ``proficient'' label really means that their children are on track 
to compete in a world where education is the key to opportunity.
Third: Catalyze innovation to make accountability more personal for 
        American families
    When it comes to the performance of the K-12 education system, 
nobody has more at stake than America's children. Imagine the impact if 
large numbers of American parents were to demand that local school 
boards improve school performance and put many more children on track 
for college and career success. American schools would improve far more 
quickly.
    This kind of commitment to children's futures must arise from the 
hearts and minds of American parents. But federal, state, and local 
policymakers can create conditions to make this kind of activism more 
likely.
    Parents are first and foremost motivated to ensure that their own 
children get a great education. The best way to stimulate an army of 
advocates for better schools is to help parents see that their own 
children's futures depend on better schooling than they are getting 
today.
    Policymakers might accelerate this process by catalyzing innovation 
that helps parents understand how their children are performing and 
that gives parents more tools to put their children on the path to 
success. To the extent that policymakers are investing in R&D, here are 
three specific ideas for consideration:
    <bullet> New high-quality computer-based assessments that quickly 
and frequently provide parents with easy-to-understand feedback on 
their child's progress could help draw parents into deeper 
understanding of their children's trajectory toward college- and 
career-readiness. With deeper insight into their children's 
performance, parents might be more likely to intervene early when they 
see that their children are not on track.
    <bullet> New ``electronic education records,'' similar to 
electronic health records, could put more power in parents' hands by 
allowing them to share information about their children's achievement 
and progress with schools, after-school programs, summer programs, and 
online providers of educational services. Of course, parents would need 
control over who has access to this information.
    <bullet> More transparency around assessments could help parents, 
students, and third-party education providers better align their 
efforts to help students succeed. Eric Hanushek, GreatSchools board 
member and Senior Fellow at the Hoover Institution at Stanford 
University, recently proposed an idea in this vein: ``open tests'' that 
allow parents and students, as well as teachers, to better understand 
what ``proficiency'' really means.
    Ideas like these can be accelerated through grant programs run or 
funded by the federal government, such as Digital Promise.
    Thank you for the opportunity to discuss these issues with you 
today. I am happy to answer any questions.
                                 ______
                                 
    Chairman Hunter. And thank you all for your testimony 
again, and thanks for being here.
    Mr. Jackson, in your testimony you discuss providing 
parents with greater access to school records and helping 
make--helping parents make more informed decisions about their 
students' education. So the question is this: Can you talk 
about the idea in more detail and how you expect that to happen 
while maintaining student privacy?
    Mr. Jackson. Yes. The accountability, I think, becomes 
personal to parents, primarily at the level of--first and 
foremost at the level of their own children. So while it is 
useful to release school results and important to disaggregate, 
et cetera, those results, when parents see that their own 
child--it may be whether they be--I also have a child with 
learning disabilities. She was in second grade when the teacher 
raised a red flag and said, we have a problem here.
    When a parent has access to honest and reliable data about 
the progress of their child, it gets--it is personal. So while 
we think that it is critical that States and the Federal 
Government encourage this, that States and localities provide 
that information at the level of the child so that parents can 
grab a hold of the issue that way, privacy issues are 
paramount, and parents must give permission, obviously, when 
any data is to be shared with a third party or that data is to 
be made public in any way that could compromise the privacy and 
confidentiality of their children's performance.
    Chairman Hunter. The next question is for Dr. Greene. You 
talked about the benefits of the decentralized system, and our 
education system was strong as it kept growing from the local 
level. I would think that some folks, and know that some folks, 
do disagree with that, and that the Federal Government is 
needed to set requirements for schools. Can you explain the 
difference between what you were saying about concern for 
national standards and requirements such as disaggregated data? 
And speak as loudly as you possibly can.
    Mr. Greene. Sure. I am not arguing that there is no 
appropriate Federal role here. And one of the appropriate 
Federal roles is information provision, sort of a consumer 
protection. If we want to facilitate choice and competition 
among local districts, local schools, then that market is made 
better if there is information available for consumers, and one 
of the roles the Federal Government can play is in providing 
information. In fact, the Office of Education was created here 
in the national government shortly after the Civil War, and its 
sole function was information collection and provision, and 
that was a longstanding Federal role.
    In the 1960s, we expanded the Federal role to include some 
redistributed functions. So there are certain kids that are 
more expensive to educate, kids with disabilities, students who 
are English language learners. And we recognized that 
localities had a hard time educating those students because 
they are more expensive, and so there is a disincentive to 
serve those students. Well, the Federal Government stepped in 
and said, we will require you to serve those kids, and we will 
help you pay for them. These are, I think, appropriate roles.
    We have gone beyond that now, and now what we are doing is 
having the Federal Government engage in developmental aspects 
of education policy and basically dictating practices and 
procedures and policies that localities should follow. And 
frankly, the national government is not very good at figuring 
that out. The localities are much better at figuring that out 
in the competitive environment.
    Chairman Hunter. And your point, too, about if we make a 
mistake with the institution of national standards, that 
mistake is going to be there for a long time. Can you expound 
on that a little bit?
    Mr. Greene. Sure. There is actually a great example of 
this: Japan. Japan has a school calendar that begins in April, 
not September. Most of the rest of the developed countries in 
the Northern Hemisphere have schools that begin in September. 
And this is actually very convenient for people who need to 
move from place to place, so they want to be able to pull their 
kid out in one grade and enroll them in the next grade, and the 
summer is a great time for moving. People move then.
    Well, Japan somehow decided centrally at the national level 
that they would have--that they would start schools in April, 
and the trouble is they are kind of stuck with this. And it is 
incredibly inconvenient for Japanese executives who have to be 
sent overseas with their families. Their kids have to repeat 
grades. So you can make a national mistake and be stuck with it 
for a century, and it can be very disruptive for kids. And that 
was just kind of a good example of how a country can make that 
mistake.
    We ended up with our school calendar like it is through a 
decentralized system of choice and competition. This is the 
work of William Fischel that I would suggest.
    Chairman Hunter. Thank you, Doctor.
    The chair now recognizes the ranking member Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    I direct my question to Ms. Kaloi. As a parent you discuss 
some of the interaction with your school system. How do you 
think that you as a parent, or anyone as a parent, would be 
able to initiate or enhance the confidence of improvement in 
your school system? What experience have you had in that area?
    Ms. Kaloi. Thank you for the question.
    I think it is very important to think about the role that 
parents do play in their local school and that we want our 
local schools to be good schools and to be better schools. It 
is really about the safe instructional environment in which our 
children can learn and grow. Parents have the capacity--some 
better than others, such as myself in a suburban area--we have 
the capacity to work very closely with our school. Other 
parents are more challenged to do that. That is why there is an 
opportunity to think about the appropriate role of the Federal 
dollar in providing the additional educational benefit to the 
students who need it and helping parents know that they at 
least have a floor to stand on when they go in to have those 
discussions. That floor is very important. Local leaders can 
decide to expand and have the ceiling as high as they want it, 
but there are parents who need that support.
    Mr. Kildee. What role should the Federal Government play in 
getting parents more involved in accomplishing this?
    Ms. Kaloi. I think we have discussed today on the panel how 
important this data--access to your student-level data is and 
being able to understand how is my child doing on grade level, 
and then be able to have that discussion. For parents with 
disabilities, we may have been able to have a discussion about 
how to try and increase supports and services for the child. 
But until No Child Left Behind, we weren't able to understand 
how our children were doing as compared to the other students.
    Having access to this data is really important. What does 
my child need to know in this grade to be able to move forward, 
and be proficient, and learn and grow in the ways that the 
other children around them are learning and growing? And so I 
think, again, having that opportunity to have access to the 
data and understand that the schools are required at some level 
to do something if certain students need extra help. That is 
the goal of that Federal role is if you are providing the 
additional dollars, what is going to happen to help improve 
that instruction.
    Mr. Kildee. Thank you very much.
    Dr. Greene, in Flint, Michigan, where I taught school, we 
had many people from Paragould going to school there. I was 
teaching during the Little Rock Nine affair down in your State, 
and there the Federal Government had to intervene because one 
group was so unprotected, they were not even allowed to enter 
the building.
    Should the Federal Government protect quality education for 
subgroups of students? Segregation is not always a physical 
thing, but can be in the level of education service. So there 
is a concern of the Federal Government to not only abolish 
physical segregation, but to make sure that certain people, 
certain groups are not deprived of the best quality education 
as possible. Could you respond to that?
    Mr. Greene. Sure. I agree that that redistributive role of 
the Federal Government is appropriate. It can only be provided 
by the Federal Government. But the Federal Government has to be 
humble about what it is good at and what it is not good at. So 
it can ensure access, but it can't ensure that every student 
will receive the same education in the same way and receive the 
same outcome as a result. That is actually beyond--as much as 
we might like it, and as much as we might deplore the 
inequalities that might still exist, not all problems can be 
fixed by the Federal Government, and some of those have to be 
fixed by struggles at the local level which need to be carried 
on as well.
    Mr. Kildee. But access can also be denied through quality. 
It is not just physical access. So if, for example, for one 
reason or another a school or school system neglects a certain 
group, that is really denying them access to a quality 
education; is it not?
    Mr. Greene. Well, access to the school building itself is 
obviously the most dramatic thing. But there is no measure that 
currently exists or that is being proposed or that I could 
envision whereby the Federal Government should ensure equal 
outcomes for all students from all groups. As much as we might 
like it, that is impossible.
    Mr. Kildee. Well, we might not achieve--well, my time is 
up, and I will come back. Thank you, Dr. Greene.
    Chairman Hunter. I thank the ranking member.
    The chairman of the full committee Mr. Kline is recognized 
for 5 minutes.
    Mr. Kline. Thank you, Mr. Chairman, and thanks to the 
witnesses for being with us today and for your testimony.
    A constant theme in our hearings has come back to the 
importance of this data, this information. And I think there is 
a growing bipartisan agreement on this committee and 
increasingly around the country that that data needs to be 
disaggregated, we need to be able to look in and see how 
different elements of our student body are doing well. 
Obviously we have had terrific testimony today about learning 
disabilities in special needs children, but we need to look in 
and see how English language learners and the poorer kids and 
minority kids are doing. That is a product of No Child Left 
Behind that seems to be pretty widely accepted.
    And so we are looking and debating and doing some 
struggling here in this committee to address the issue of 
accountability. One of the themes that stays there is the 
necessity for this information. We don't always agree on the 
next step, but that is an important part, I think, of our 
understanding. We need to do something, and that needs to be 
part of it. So I want to thank you for your--all of your 
testimony today in that regard, and you are just reinforcing 
it.
    Now, Dr. Greene, I was interested in your testimony about 
how countries with centralized systems are sometimes 
outperforming us and sometimes not. We often hear about the 
outperforming. I mean, Finland gets thrown in a lot of times. 
We have heard some reports coming out of China, and alarm bells 
go off because we want to be competing in a world economy, and 
so we need to have a world-class education, and all these 
alarms go off. And you are saying, well, sometimes it sort of 
matters and doesn't.
    So should we just ignore those comparisons, or is there 
something there that we can pull out of that when we see--we 
get these comparison reports that says somebody else is doing a 
whole lot better than we are?
    Mr. Greene. Well, I think what these comparisons show is 
that a lot of factors help explain the academic success in 
countries, not just the extent of centralized or decentralized 
standards, curriculum and assessments, but also it is important 
to have a system that is appropriate for your country. So 
Finland is a small, homogenous country of a couple million 
people, so is Singapore, and perhaps they can have a 
centralized system and have that work reasonably well because 
they are so small and homogenous.
    We are large and diverse, and we have to recognize that 
fact, and we have to have a system that is appropriate for us. 
And we did. We built a system like that. It is called 
federalism. And actually it worked really well and built a 
world-class education system. I mean, we have to remember there 
was a long time when everyone was chasing after us, and they 
were chasing after us with our decentralized system. So there 
is no reason why we have to throw away what helped us build a 
world-class education system. Perhaps we need to return to our 
roots rather than to chase after someone else's model that may 
be inappropriate for us.
    Mr. Kline. Well, let us explore that for just a minute 
because we are not--by these comparisons we are talking about, 
we are not the destination of choice for a number of places 
because test scores internationally show that some countries 
are doing better. And you postulated that at one time we were 
the destination, we were the model. So what changed? Why aren't 
we now?
    Mr. Greene. Well, I think a lot of things changed. I mean, 
there are obviously things in our culture, our popular culture, 
our families, that are very important for the trajectory of our 
educational achievement. But another thing that we did 
politically is that we significantly centralized the education 
system. Now a majority of district funding is coming from State 
or Federal sources on average, not from local taxes, and 
increasing sets of regulations are being dictated by the State 
and national governments. We also consolidated districts quite 
significantly so that there is a lot less competition among 
them.
    I mean, there is actually interesting research, some that I 
have done, some that Caroline Hoxby has done out at Stanford, 
that shows that actually in States that have more districts 
where there is a more competitive environment among localized 
providers, you have much better student outcomes. And so when 
we centralize, we are reducing the competition, and when we 
regulate, we are reducing the competition among those local 
providers, and that has been hurting our achievement.
    Mr. Kline. Thank you very much.
    I am just about to run out of time, so I am not going to 
ask this question, but I am very interested, Mr. Jackson, in 
the parental information. I think that is an important part of 
the progress that we are seeing around the country as real 
innovators are stepping up to make changes, because you have 
parents--you have got a more formal system in California, the 
parental trigger, but parents are getting involved as they 
increasingly understand that the status quo is failing their 
kid.
    So I will yield back, Mr. Chairman.
    Chairman Hunter. I would like to recognize Ms. Hirono for 5 
minutes.
    Ms. Hirono. Thank you, Mr. Chairman.
    We have had so many hearings on the importance of quality 
early education, and all of them--I would say almost 100 
percent of the people who have been testifying in this 
committee over the years have acknowledged that there is much 
evidence to support quality early education.
    I wanted to ask Ms. Kaloi, with your experience in dealing 
with children with learning disabilities, how important is 
quality early education for this group of learners?
    Ms. Kaloi. It is significantly important, and thank you for 
that question. You know the data better than I and the work you 
have done in your State in Hawaii. Children who are at risk for 
being diagnosed with disabilities or having some kind of 
disadvantage, to be able to provide that early start, that 
early help is premier.
    We know from data that has been substantiated for the last 
20 years that students who are not reading by third grade are 
at much reduced ability to graduate from high school, and that 
alone is one marker that we need to continue to pay attention 
to. Reading matters, and it affects opportunities later in 
life. So that is one example.
    We have several opportunities to work in the early 
education arena related to screening, the use of formative 
assessment, the use of response to intervention to give 
students early help, and it all makes an incredible difference. 
Schools have been so willing in this new environment of paying 
attention to who needs help sooner that we have seen an 
increase in the use of response to intervention, or what we 
call a multitier system of support--a framework where you 
actually help kids as soon as they begin to struggle, and you 
don't wait.
    Ms. Hirono. So that being the case then, what percentage of 
the children with learning disabilities have access or are in 
quality early education programs throughout the country? Do you 
have any idea?
    Ms. Kaloi. With learning disabilities, it is a little bit 
tricky in that we don't tend to diagnose learning disabilities 
because of the way the Federal law requires that you diagnose a 
learning disability or allows for it to be diagnosed. So we 
really look at kids who have early speech delay and early 
problems that then lead to and can lead to the evaluation and 
diagnosis of a learning disability.
    Head Start has 10 percent of its funding to focus on 
students who are at risk, and they are doing a very good job of 
trying to target those dollars and look at kids who are in Head 
Start programs. Some States have taken great strides to begin 
to look at this in a very intense and direct way to know what 
those early warning signs are.
    Ms. Hirono. Since we really don't have a good system for 
identifying children with learning disabilities early on, then, 
obviously, by the time they are identified, they are beyond 4 
years old. So what percentage of those kids who are later 
identified have had the quality early learning experience?
    Ms. Kaloi. I can get back to you and answer that on the 
record, if that is okay. I don't have that number right in 
front of me. But we do know there are still far too many 
students who we wait to identify them later in the third and 
the fourth grade. We know that that is one of the ongoing 
dilemmas that we have. One of the challenges that learning 
disabilities presents is that we are waiting too long to give 
them that early help.
    Ms. Hirono. I get from your testimony that having a 
learning disability, that is not a permanent condition for the 
vast majority of the kids who are deemed as learning disabled, 
that they move out of that, into the classroom and they--when 
we think of children with learning disabilities, we may think 
of the most extreme learning disabled children, but your 
testimony says the vast majority of children are not in that 
category, that they can move out of this subgroup?
    Ms. Kaloi. That is correct. If you look at the chart that 
is in my full testimony, it shows you there are 13 ways to 
classify students with disabilities in our public schools. 
Specific learning disabilities are one category of those 13, 
and a learning disability is a language-based disability that 
primarily affects one's ability to process information. So it 
is lifelong, however, but you can compensate and overcome and 
be very successful in life with a learning disability.
    Ms. Hirono. Thank you.
    I am running out of time. I did have one short questions 
for Mr. Jackson.
    You noted in your testimony that the national core 
standards help. Because if you are providing national 
information to parents, it would help if they were comparing 
apples with apples, right, and not apples and oranges? So that 
is great for the parents that access your Website. But there 
are millions of parents who don't have access, who may not 
know, even if they have the information, what to do with it, 
how to be an advocate for their children.
    So last week we had testimony on an idea of having parent 
academies so that parents are empowered to navigate the system 
for their children. They may even increase their own ability 
to--for many of the parents who may be economically 
disadvantaged, et cetera. So is that something that you all 
would support, parent academies to really empower parents to 
use the information that you are providing?
    Chairman Hunter. The gentlelady's time has expired. If you 
wouldn't mind taking that for the record.
    Ms. Hirono. He is nodding yes.
    Mr. Jackson. I would be happy to answer later.
    Ms. Hirono. Thank you.
    Chairman Hunter. Thank you.
    I would like to recognize Mrs. Biggert for 5 minutes.
    Mrs. Biggert. Thank you, Mr. Chairman.
    I think that Dr. Gooden has likened the current high-stakes 
test of accountability to an educational autopsy.
    Mr. Gooden. I did.
    Mrs. Biggert. And I do think that we all think that the 
data collection and reporting can be a burden to States and 
school districts, but I think we all know that it is very 
important to monitor student achievement. And as we move 
forward with reauthorization efforts, how do we make sure that 
the data is used to improve instruction, not just as reports 
that arrive well after the school year is over and in many 
cases way into the next year before any of that----
    Mr. Gooden. That is my very point, that using one test 
given once a year is a little more than an autopsy. Because by 
the time the results are received, the students have moved on; 
and it actually does very little to shape instruction for a 
school, for a classroom, or for an individual student.
    Now, what we need are multiple assessments; and by using a 
variety of assessments, some of them formative, the teachers 
can monitor, adjust their instruction. They can use it to 
address specific student needs. We have seen great results from 
using interim assessment models during the year as students are 
still under our tutelage.
    Mrs. Biggert. We have talked about the growth model which 
would really change the usage, too, of the data, wouldn't it, 
the student performance? So how do we help to develop systems 
that the teachers can get the data in timely and----
    Mr. Gooden. First, you must have a good electronic data 
system that allows for tracking so that when information are 
gathered, that they are accessible, that they can be adequately 
sorted, and that teachers can have access, and they can know a 
specific student's performance deficits and needs and can 
modify their instruction to address those.
    Growth is an important thing. As I indicated, students come 
to the starting line at different levels; and it goes back to 
the previous question about early childhood experiences. We 
have some youngsters who come to our schools who are, frankly, 
not at what we might say the kindergarten level. And while we 
have done a great deal to enhance pre-K opportunities in our 
school district, the fact is that we still have students who 
don't have a viable pre-K experience. And it is very important 
for us to acknowledge that when they start at different places 
we are going to have to do some dramatic things if we want them 
to all end at the finish line at the proper time. And it is not 
going to be a good result when students are not up at the 
starting line and think that they are going to win the race. So 
we have to do some things along the way.
    Mrs. Biggert. Thank you.
    Then my other question is for whoever wants to answer. But 
research has confirmed that parental involvement--we have been 
talking about this--is important to student success. When I was 
in the State legislature--and that was like 16 years before I 
came here, maybe--yeah, about 16--in Illinois, we turned the 
Chicago public schools over to Mayor Daley, who was the mayor 
at that time, to take over the schools and revamp them.
    One of the things that the first superintendent then that 
came in, Paul Vallas, wanted to really encourage the parental 
involvement. So he set up councils of parents for each of the 
schools, and there was to be an election. The problem was 
nobody showed up and weren't involved. So what he did was to 
not--no student got their report card unless their parents came 
to the school to pick them up, and that kind of started how 
getting the parents interested.
    You know, I think that the accountability can really 
empower parents, but how do we get the parents there that 
should be there to take part of that?
    Mr. Gooden. I will be glad to talk about that.
    I think parent involvement is absolutely critical. We have 
a system of neighborhood elementary schools, and you just 
cannot overstate the importance of a viable parent 
organization. We have a PTA unit at every school. We have a 
district PTA council that works with those individual units to 
build their leadership and engagement capacity. And we do a 
great deal of things to try to get those parents engaged all 
along the way. Just giving them information is important. But 
they need to be engaged in their children's education with 
formal and informal intermittent conferences.
    Mrs. Biggert. Thank you. My time has expired.
    Mrs. Roby [presiding]. Ms. Woolsey is recognized for 5 
minutes.
    Ms. Woolsey. Thank you.
    Dr. Greene, you said earlier that there is no measure to 
ensure equal outcomes for all students. You have to know I 
disagree with that. We do have data. We do have assessments to 
identify where students are falling behind, and then we can 
target the interventions. That is in fact one way that we can 
ensure equal access to a high-quality education.
    So I would be interested to know what time period you are 
discussing when you talk about our system being the envy of the 
world before Federal involvement. I truly believe that the 
Little Rock Nine might very much disagree with you, and I think 
that minority students and students with disabilities would 
disagree in general. It was Federal involvement that turned 
this around. So I don't need you to defend this, but I think 
that is very wrongheaded.
    Mr. Greene. Sure. Well, certainly there were many blemishes 
in the history of U.S. public schooling, but this is true 
worldwide.
    Ms. Woolsey. We are talking about the United States.
    Mr. Greene. No, no, no. So the question I think was, is it 
the envy of the world?
    Ms. Woolsey. When was it the envy of the world before we 
had these Federal interventions?
    Mr. Greene. Well, like I said, some of the Federal 
interventions are desirable and productive. That is when it 
comes to redistributive matters, that is ensuring that everyone 
has access to the public schooling system and information 
provision. I think those are very appropriate roles for the 
Federal Government, and that expansion of the Federal role was 
desirable.
    However, the Federal Government is not good at figuring out 
the specific standards, curriculum, and assessments that 
schools should be employing; and it is an evolving process. So, 
you know, keep in mind local schools try lots of things, and 
some of those things work, and some of them don't.
    Ms. Woolsey. That is right. So who is--okay. I hear what 
you are saying, and I know where you are going.
    And I do have another question with a whole different 
thought; and it is for you, Ms. Kaloi.
    I think I need to tell my story. I married--my children--my 
three children and I became a blended family with a young 
kindergartner and his dad. And this young kindergartner 
actually had very clear speech problems and thought process 
problems, a very high IQ but just couldn't quite put that all 
together.
    So we had him tested. This is in the 1970s. I mean, this 
kid is 47 now. He is a college graduate, by the way, and a very 
successful dad and the whole thing. But we did it. We had him 
tested. We got him in the special education class with the 
program that met his specific needs. This is way before IDEA.
    And it was very clear that is what it took. It took that 
kind of parental involvement. And they told us then--I believe 
he was in third grade--if your son has self-respect and 
confidence as he is learning around his disability, he will be 
fine in his later years. So that is what we knew that we needed 
to be working on, and it was a relief to the entire family to 
know how to help him. Because he is a great, great person and a 
great--he was a great kid.
    So we know that parents who are involved can make a huge 
difference. So what can we do for the child whose parents 
either can't be involved because of lack of education 
themselves or can't help this child succeed and provide the 
support because they don't have the resources at home? Some 
don't have the will to do it. Are there services that we should 
be providing to these school systems, wraparound services? What 
kind--how do we get them there?
    Ms. Kaloi. Thank you for the question. Thank you for 
sharing your story.
    The most important thing I think you said is you knew this. 
I wish more Members of Congress knew what you just said, that 
people with learning disabilities can achieve, they can learn 
with their peers, they can graduate from high school, and they 
can have great success in life. But it does take additional 
educational support, it takes intervention, it takes early 
help, and it takes consistent support. That is the most 
important thing, if we could help spread that message together 
instead of perpetuating the myth they are the downfall of what 
is happening in the schools.
    Secondly, it is a partnership. There is a role for the 
Federal Government in providing this floor. Parents need to 
know that their child's outcomes matter the same as every other 
child in the building.
    Jay just said to me, if your kid is exempt, then your kid 
is ignored. I like that you just said that. I like that he 
believes that.
    It is very important to know that we can't exempt any 
children. They all need to count because they need not be 
ignored.
    And the third thing is there are organizations like mine 
and others who are trying to provide that information. We need 
stronger partnerships with pushing this information out and 
providing support in very high need areas, and many of us are 
working very hard to do that. But there is a role here for all 
of us to play together to partner in those efforts.
    Ms. Woolsey. Thank you.
    Chairman Hunter. I would like to recognize Mrs. Roby for 5 
minutes.
    Mrs. Roby. Thank you, Mr. Chairman.
    Thank you all for being here today.
    And I have to say as all of us travel around our districts 
and meet with superintendents and with educators and we 
oftentimes bring that testimony to you as the basis for our 
questions, but I have to tell you this morning I am excited 
because, Mr. Jackson, what you have been talking about is 
something that happened just in my life this morning as a mom 
of a 6-year-old in the first grade of Montgomery County School 
System in Montgomery, Alabama.
    My husband went to the first grade powwow last week to meet 
with the teachers to make sure that we understood, you know, 
Margaret's progression and where she was and what we as parents 
need to be doing at home to reinforce what was being taught in 
the classroom and had the opportunity to sign up to receive 
access to Margaret's grades on line. And so we received a 
password--a log-in name and a password.
    And she had a math test this Monday; and, of course, it 
didn't come home because the teachers can't grade the papers 
that quickly and turn them around. But before it came home this 
morning, we checked on line and found out what her grade on 
that test was and then what her average was for the year in 
math.
    Now, she is in the first grade, but she is learning skills 
that if, of course, we get behind and we don't build upon, then 
she can get further behind. And as a parent to know that we had 
immediate access to this information where, if she was falling 
behind, we could then contact the teacher, set up a conference 
if we needed to, and work with Margaret specifically on that 
skill so as she builds this week on the next skill, she 
wouldn't fall behind.
    And I just am thrilled at your testimony because I think 
there is a--we can distinguish between that type of 
accountability and the accountability of the institution and 
the Federal Government's role as you, Dr. Greene, have talked 
about on the national level that this type of accountability is 
specific to that school, to that classroom, to that child, when 
we know that every student population from city to city, State 
to State, school district to school district, and even schools 
within those school districts vary based on student population 
and what the needs are of those children.
    So I know that is not really a question, but I just was 
thrilled to hear your testimony. And if you want to expand on 
that, maybe some of the specific benefits of great schools that 
you have seen that can add to that.
    Mr. Jackson. Thank you for the question, and I am glad that 
Margaret is on track.
    Mrs. Roby. I am proud to report that she is this week, but 
we will stay on top of it.
    Mr. Jackson. With a Member of Congress for a mother, I 
think it is probably an extra challenge with the demands of the 
job.
    One thought is that technology as you have described is an 
incredibly powerful tool in this effort. And also to address a 
question asked by a member earlier as well, that technology is 
increasingly accessible and used by lower income, more 
disadvantaged families. The percentage of families whose 
parents regularly use a cell phone to communicate is really 
quite high and in some low-income communities very high.
    And if you as a school were to innovate, building on Dr. 
Greene's point about, okay, let us innovate at the local 
level--let us say we had a very high population, for example, 
of immigrants who don't have on-line access but do have a cell 
phone, we could work with--there are already both non-profit 
and for-profit providers of services looking at, okay, how do 
we use that cell phone and not require that the parent would 
have that Internet-connected computer to go on line and log in. 
And we could even use text messaging to say your child was or 
wasn't at school, and so text messaging is increasingly--not 
universal, but keeps inching up there.
    So my only additional thought would be, well, first, is 
congratulations on being a successful, involved parent and 
then, secondly, that local innovation, anything that Federal or 
other policymakers can do to support and encourage that local 
innovation to use technology to reach, empower, inform parents 
is very powerful.
    Mrs. Roby. Thank you for that. I have to say it is exciting 
to see that there are innovative school districts that are 
taking advantage of these things in order to allow the parent 
greater access. I think that is something that we have talked 
about today, is just having that access to hold the teacher and 
the school accountable for what they are doing.
    And then, Dr. Greene, just going back to you--and my time 
is almost out. But talking about the superintendents and our 
educators, they are hungry for parent involvement. I guess any 
of you could answer that, and we kind of touched on this. But 
what are some ways we can incentivize--and you can submit this 
for the record, because my time is out. But what are some ways 
specifically that we can incentivize our parents to get 
involved in our children's education?
    So thank you so much, Mr. Chairman. I yield back.
    Chairman Hunter. I would like to recognize Mrs. Davis from 
the beautiful city of San Diego for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman, from San Diego.
    Maybe I will just ask you--thank you all very much for 
being here, and I am sorry I missed your earlier remarks. I 
hope I can pick this up.
    The opportunities for parents to attend parent academies 
was mentioned earlier, and I know actually in San Diego that 
was started many years ago. I think there are some--I wouldn't 
even call it controversy, but I think initially there was a 
hope that the achievement levels of children whose parents were 
involved would maybe show more incremental success than they 
did. I think that has changed some. Partly, it is a little bit 
more sophistication perhaps of the academies, and we had a 
witness testify to that earlier.
    But I wonder if you could comment on that and to what 
extent that should be really part and parcel of our schools and 
maybe the decisions about what kind of approaches are used, are 
different. But the fact that there is a way that parents can 
really get more information about how they can help their kids 
be successful is important.
    The other question I would ask you to go along with is 
where would that play into a Federal role that is trying to set 
some parameters in a kind of collaborative evaluation of 
individual schools as well as districts and, of course, at the 
State level. Do you see that there is a Federal role in that 
and how does that have anything to do with whether or not you 
really provide more opportunities for parents to learn in a 
setting that is very welcoming I think for parents to 
understand how best to do this?
    Mr. Jackson. Thank you for the question.
    Your point that there is limited evidence of the efficacy 
of programs that target parents is well taken. The evidence 
that does exist, stronger evidence, is for programs that 
address parents of the youngest children. There is a program 
called the Nurse-Family Partnership. There is a program run by 
a nonprofit called Avance. These programs have shown, using 
randomized control trial methodology, that the students of the 
parents served do better in school.
    They begin in the case of the Nurse-Family Partnership 
when--before children are born, and they help--I think there is 
an important point to be made here, which is parents need 
information. They also need to develop skills. So you can 
know--you can know how your child is doing, but if you develop 
certain ways of talking to your child and motivate them that 
help them develop their own confidence and capacity, that is 
the ultimate goal.
    So I think the last comment----
    Mrs. Davis. I would agree with you. I think some of those 
programs are excellent. Unfortunately, there are a number of 
communities in which they are quite controversial.
    Mr. Jackson. Yes. Well, I would say it is up to the private 
sector, non-profits primarily in this case, given this market, 
to burst through some more barriers there.
    Can we use a combined technology and on-the-ground 
approach? I think that is very promising in looking at the 
parent academy concept. A number of districts have done that.
    Can we marry communications technology with some old-
fashioned, on-the-ground organizing and education, especially 
starting when children are very young and could we show 
results? I think that we could in the future.
    Mrs. Davis. Yes, Dr. Greene, did you want to comment?
    Mr. Greene. I could just--I don't know--to answer that 
question, also, though, part of why parents are not more 
involved is because they don't have a sense of ownership over 
their schools. That is that they may not see the schools as 
their school and they may not see that because the school is 
increasingly controlled by more distant authorities. And so one 
of the ways to increase parental involvement is to decentralize 
so that people feel like it is their school.
    And just also to help answer Representative Woolsey's 
earlier question that one of the kind of golden era when people 
were imitating the U.S. is when we had incredibly high 
secondary graduation--secondary school attendance and 
graduation higher than anywhere in the world, and people wanted 
to imitate offering secondary schools. Where did secondary 
schools come from? How did we get high schools?
    Mrs. Davis. Can I go ahead----
    Mr. Greene. Sure. I am sorry.
    Mrs. Davis. I am sorry. I appreciate your wanting to do 
that, but I don't have very much more time, either.
    Just when we talk about access to data on student 
achievement and, obviously, there is some States that have had 
school accountability report cards and other ways of just 
generally getting that information out. In addition, obviously, 
every school has an individual report card for a child. I think 
that is really just an outline of sorts, doesn't give them as 
much information perhaps as they want.
    But I am just--again, kind of going back to what the 
Federal role is in that, how should the Federal Government play 
a role in those systems?
    Ms. Kaloi. Just quickly, I think you touched on what kind 
of collaboration is effective, and I think one of the findings 
that is really compelling is that there is better collaboration 
now between general and special education teachers. Having the 
Federal Government continue to fund and promote professional 
development for teachers is critical. Parents want to know 
their child is in a class with a qualified teacher, with an 
effective teacher.
    And then to this point related to helping the parents 
become more engaged, I think we have challenges that are due to 
cultural backgrounds, to--I know families--for instance, 
Hispanic families may tend to have a feeling that the school 
knows best, and asking questions is difficult and challenging. 
Other cultures have similar issues.
    We know in the research that we have done related to how 
parents have discussions related to their students with 
disabilities, what are the proper ways to help them feel like 
they have the tools to ask the questions? So I think it is 
about giving incentives to make sure that there is training for 
parents that can be provided. But, again, it is all about 
instruction in the classroom and then having parents be able to 
know that they can go in and ask those questions without, you 
know, any kind of fear attached to it.
    Mrs. Davis. My time is up. Thank you.
    Chairman Hunter. In closing, I would like to thank the 
witnesses for taking the time to testify before the 
subcommittee today. I think everybody found your testimony 
extremely intriguing and spot on, I think, on both sides of the 
aisle.
    I would like to yield to Mr. Kildee for any closing remarks 
he may have.
    Mr. Kildee. First of all, I would like to thank you for 
assembling a very good panel. We learned some things about 
education. We have learned--it is nice to see people who have 
some differences of viewpoints and some overlapping viewpoints. 
And you and I have always exercised civility. It was nice to 
see a panel out there that can give us some good examples of 
civility, and I really appreciate the content and the manner in 
which you delivered your testimony. Thank you.
    Chairman Hunter. I would like to thank the ranking member.
    And as one of the other people up here that has--I have got 
a fifth grader, a second grader, and a kindergartner. It was 
great hearing the word ``parent'' uttered from your mouths over 
and over and over again.
    We use Face Time with my son. He gives me his math 
homework. I was a math nerd in college. We use any technology 
we are able to use. Forget about the school. I take it upon 
myself to get the information for my kids and help them even 
while I am out here. So we use Face Time, and I help them with 
their math homework.
    But we would just like to thank you all again. Thank you 
for your great testimony.
    And, with that, there being no further business, this 
subcommittee stands adjourned.
    [An additional submission of Mr. Hunter follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [Questions submitted for the record and their responses 
follow:]

                                             U.S. Congress,
                                  Washington, DC, October 14, 2011.
Mr. Bill Jackson,
GreatSchools, 160 Spear Street, Suite 1020, San Francisco, CA 94105.
    Dear Mr. Jackson: Thank you for testifying before the Subcommittee 
on Early Childhood, Elementary and Secondary Education at the hearing 
entitled, ``Education Reforms: Ensuring the Education System is 
Accountable to Parents and Communities,'' on Wednesday, September 21, 
2011. I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
Committee after the hearing. Please provide written responses no later 
than October 28, 2011 for inclusion in the final hearing record. 
Responses should be sent to Dan Shorts of the Committee staff who can 
be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
Committee.
            Sincerely,
                                Duncan D. Hunter, Chairman,
         Subcommittee on Early Childhood, Elementary and Secondary 
                                                         Education.
                   representative mazie hirono (d-hi)
    1. Socioeconomically disadvantaged parents may not be able to 
access your website or understand how to use the information to 
advocate for their children. On September 14, in our committee, 
Superintendent Carvalho of Miami-Dade schools discussed his district's 
Parent Academies (http://theparentacademy.dadeschools.net/). Would you 
support Parent Academies to help parents use the information you're 
providing?
                                 ______
                                 
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

                                             U.S. Congress,
                                  Washington, DC, October 14, 2011.
Ms. Laura W. Kaloi,
National Center for Learning Disabilities, 12523 Summer Place, Oak 
        Hill, VA 20171.
    Dear Ms. Kaloi: Thank you for testifying before the Subcommittee on 
Early Childhood, Elementary and Secondary Education at the hearing 
entitled, ``Education Reforms: Ensuring the Education System is 
Accountable to Parents and Communities,'' on Wednesday, September 21, 
2011. I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
Committee after the hearing. Please provide written responses no later 
than October 28, 2011 for inclusion in the final hearing record. 
Responses should be sent to Dan Shorts of the Committee staff who can 
be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
Committee.
            Sincerely,
                                Duncan D. Hunter, Chairman,
         Subcommittee on Early Childhood, Elementary and Secondary 
                                                         Education.
                   representative mazie hirono (d-hi)
    1. What percent of students who are later identified with 
disabilities had access to high-quality early learning experiences?
                                 ______
                                 

             Response to Questions Submitted From Ms. Kaloi

    It was my honor to testify before Chairman Duncan Hunter and the 
Subcommittee on Early Childhood, Elementary and Secondary Education on 
September 21, 2011 at the hearing entitled ``Education Reforms: 
Ensuring the Education System is Accountable to Parents and 
Communities.'' Thank you for your question, ``What percent of students 
who are later identified with disabilities had access to high quality 
early learning experiences?''
    Studies have found that pre-schooling programs significantly reduce 
the rate of special education placement. For example:
    <bullet> An in-depth study of the effect of pre-schooling on 
special education undertaken by Conyers et al. (2002), using data from 
the Chicago Child-Parent Centers program, showed that special education 
placement was lower for pre-school children as far as grade 8 (with no 
data collected beyond 8th grade). The effect is broadly consistent 
across disability types (not all disability types could be identified 
in the research because of small samples). Except for emotional/
behavioral disorders (where there is no difference), pre-school 
attendance is associated with special education placement rates which 
are lower by: 60% for mental retardation; 32% for speech/language 
impairment; 38% for specific learning disabilities.
    <bullet> A study by Temple et al. (2010) found that preschool 
participation reduced the likelihood of school remediation. The effects 
of preschool were greater for children from families with higher levels 
of socio-economic disadvantage. The beneficial effects of preschool on 
special education placement were also larger for boys than girls.
    Certainly more research needs to be done in this area. However, 
given that a nation-wide study by the Center for Special Education 
Finance (2004) found that the average expenditure per special education 
student is 1.91 times more than for children in regular classes, 
avoiding assignment to special education by providing quality early 
childhood education has not only a significant human reward but a 
substantial financial benefit as well.
    Please contact me with any questions and thank you for the 
opportunity to testify.
                                 ______
                                 
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
